       Office of Inspector General
       Audit Report




                   Water



       Region 10's National Pollutant
Discharge Elimination System Permit Program
             E1HWF7-10-0012-8100076

                  March 13, 1998




           Lake Coeur d’Alene, Idaho
Inspector General Division   Western Audit Division
 Conducting the Audit        Seattle Branch Office

Region covered               Region 10

Program Office Involved      Office of Water

Cover Photograph             Lake Coeur d’Alene, Idaho
                                       March 13, 1998

MEMORANDUM

SUBJECT:       Region 10's National Pollutant Discharge Elimination System Permit Program
               Audit Report No. E1HWF7-10-0012-8100076

FROM:          Truman R. Beeler
               Divisional Inspector General for Audits
               Western Audit Division

TO:            Chuck Clarke
               Regional Administrator
               EPA Region 10

        Attached is our final report titled Region 10's National Pollutant Discharge Elimination
System Permit Program. The purpose of this audit was to determine whether the Region
effectively regulated point sources discharging pollutants into the waters of the United States.

        This audit report contains findings that describe problems the Office of Inspector General
has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.

        In accordance with EPA Order 2750, we have designated the Regional Administrator as
the Action Official for this report. The Action Official is required to provide our office with a
written response to the audit report within 90 days of the report date. The response should
address all recommendations. For corrective actions planned but not completed by the response
date, reference to specific milestone dates will assist us in deciding whether to close this report.
We have no objection to the release of this report to the public.

        We appreciate the cooperation from your staff during this review. Should you or your
staff have any questions about this report, please call Truman Beeler, Western Divisional
Inspector General for Audit, at (415) 744-2445, or Janet Tursich of our Seattle Office at (206)
553-2998.

Attachment

Distribution: Appendix D
                        EXECUTIVE SUMMARY



PURPOSE
The purpose of the audit was to determine whether Region 10 (the Region) effectively regulated
point sources discharging pollutants into the waters of the United States. The Federal Water
Pollution Control Act of 1972 initiated a broad Federal effort to restore and maintain the Nation’s
waterways, including the creation of a permit program to regulate and reduce point source
pollution. The Region is responsible for operating the National Pollution Discharge Elimination
System (NPDES) Permit Program in nondelegated States and for Federal and Tribal dischargers
in delegated States. The audit focused principally on dischargers in the nondelegated States of
Alaska and Idaho.

The objectives were to determine whether the Region:

•      Issued required NPDES permits for all municipal and industrial dischargers.

•      Regulated dischargers to comply with permit conditions through effective compliance
       monitoring activities.

•      Took appropriate and timely enforcement actions against permittees in Significant
       Noncompliance (SNC) in the States of Alaska and Idaho, and Federal facilities in the State
       of Washington.

•      Maintained a management reporting system that was current and complete for dischargers
       in the States of Alaska and Idaho.



RESULTS IN BRIEF
The Region could make improvements in several areas of its NPDES Permit Program to more
effectively regulate and reduce point source water pollution. It needs to improve: (i) the process
for issuing and renewing permits; (ii) compliance monitoring of dischargers; (iii) enforcement of
compliance for dischargers that violated permit conditions; and (iv) reporting on new permit limits
and conditions. Our findings are summarized below and discussed in detail in CHAPTERS 2
through 5 of this report.


                                                 i               Report No. E1HWF7-10-0012-8100076
Permits Not Issued or Renewed

The Region did not issue or renew most of the required NPDES permits for municipal and
industrial dischargers in the States of Alaska and Idaho. While it issued 33 permits in the past 2½
years, there were 1,000 applications from dischargers waiting to be processed. Seventy percent
of these applications were received over 4 years ago. Dischargers without permits were not
subject to regulation. Dischargers operating under administratively extended permits that were
written prior to the Water Quality Act of 1987 were not subject to these more stringent
requirements. Regional information for three watersheds in the States of Alaska and Idaho
identified dischargers without current permits that were contributing to water quality problems.
We attribute the large backlog of applications principally to a Regional decision, made with EPA
Headquarters, Office of Water’s knowledge, to focus management attention and resources on a
few selected permits and watershed permitting.

Also, for fiscal 1997, the Regional Administrator (RA) did not report the significant permit
backlog in the annual Federal Manager’s Financial Integrity Act (FMFIA) assurance letter to the
EPA Administrator. In our opinion, the backlog should be reported as a deficiency because it is
adversely affecting the Region’s ability to meet the Office of Water’s program goals, and is
resulting in large numbers of dischargers in the States of Alaska and Idaho violating the Clean
Water Act (CWA).

To address the permit backlog, the Region issued a Comprehensive Plan (the Plan) in April 1997
that sets out a 3-year plan (fiscals 1997-1999) “that prioritizes the permits, implements innovative
policies, relies on partnerships, and lays the foundation for issuing permits for the period after
completion of this plan (year 2000 +).” While the Plan is a positive step toward addressing the
problem, the Region acknowledges that the Plan will not substantially reduce the backlog by fiscal
1999 and “with current resources, will result in NPDES Permit Unit (NPU) addressing only 6% of
the total universe of permits and 39 % of all major facilities in Idaho and Alaska.” Also, our
review disclosed that during the first year (fiscal 1997) several tasks critical to the success of the
Plan had not been performed.

Compliance Monitoring Could Be Improved

The Region could improve its compliance monitoring to help ensure that dischargers comply with
permit conditions and NPDES regulations:

       Compliance Inspections. The Region did not perform some of the NPDES compliance
       inspections of major dischargers that it committed to in its Memorandum of Agreement
       (MOA) with EPA Headquarters. Without compliance inspections, there is an increased
       opportunity for permit violations to go undetected. In addition, many inspection reports
       were not timely and actions were not taken on reported problems. As a result, instances
       of noncompliance were not corrected or not corrected timely.



                                                  ii              Report No. E1HWF7-10-0012-8100076
       Citizen Complaints. The Region did not have adequate procedures to track citizen
       complaints, document actions taken on such complaints, and notify citizens of actions
       taken. Actions were not taken on some complaints related to permit and other NPDES
       violations which appeared to warrant followup, resulting in potential adverse
       environmental impact.

       Some Dischargers Not Adequately Regulated. The Region did not have procedures to
       ensure that dischargers under storm water and seafood general permits, and minor
       dischargers were in compliance with permit conditions. Some dischargers violated permit
       conditions and NPDES regulations, and adversely affected water quality.

Enforcement Against Significant Violators Can Be Improved

The Region did not respond in an appropriate or timely manner to violations by dischargers that
were in SNC with NPDES permit conditions. The Region did not take formal enforcement action
as required against 19 of the 25 dischargers in SNC for 1 or more quarters during the period
October 1994 through December 1996. In addition, we reviewed files for all 10 dischargers that
were in SNC for 2 or more consecutive quarters and concluded that the Region did not have
written justification for not taking formal enforcement action against 9 dischargers. EPA’s
enforcement guidance requires that formal enforcement actions be taken against dischargers in
SNC. At a minimum, the guidance requires a written justification in those rare instances when
formal enforcement action is not taken. These conditions occurred because the Region did not
have effective management controls to ensure that either appropriate and timely enforcement
actions were taken or that decisions to take no action were justified and documented. Failure to
take appropriate enforcement action against violators weakens the effectiveness of the NPDES
Program to protect public health and the environment.

The Region took formal enforcement action consistent with EPA guidance against 6 of the 25
dischargers in SNC during the period of our audit. However, actions against three of the
dischargers did not meet EPA’s timeliness guidelines of 2 months after identifying the violation.
For the three dischargers, formal enforcement action was not taken for 5 to 8 months after the
violations became known to the Region. More timely enforcement action could lead to quicker
return to compliance with permit requirements.

Management Reporting System Could Be More Current and Complete

The Region’s management reporting system for NPDES permit information is the Permit
Compliance System (PCS). The PCS was generally current and complete, except for new or
renewed permits. The Region did not input some permit effluent limits and reporting
requirements into the PCS timely and completely for dischargers receiving new or renewed
permits. For four major dischargers, permit effluent limits were not input for an average of 4
months after the permits were issued. Also, for six of the eight new permits, reporting
requirements were not input to PCS. Without current and complete permit information in PCS,
Quarterly Noncompliance Reports (QNCRs) generated from the PCS were not an effective tool

                                                iii              Report No. E1HWF7-10-0012-8100076
for identifying violations for dischargers with new or renewed permits. The PCS was not updated
timely for new or renewed permits because the Region had not given high enough priority to this
effort.


RECOMMENDATIONS
Specific recommendations follow the findings in CHAPTERS 2 through 5. Overall, we
recommend that the Regional Administrator strengthen the NPDES Permit Program by:

       1.      Reporting the permit backlog as a deficiency in the annual assurance letter to the
               Administrator and fully implementing the NPU’s Comprehensive Plan.

       2.      Monitoring dischargers’ compliance with permit conditions and NPDES
               regulations.

       3.      Taking appropriate and timely enforcement actions for SNC dischargers.

       4.      Updating the management reporting system to input priority data for new permits.



REGION COMMENTS AND OIG EVALUATION

A draft report was provided to the Region on November 25, 1997 for its comments. The Region
responded to the draft report on January 23, 1998 and its response is included as APPENDIX C
to this report. Except for recommendation 2-1, the Region concurred with the recommendations
and described corrective actions that have been taken or will be taken.

The Region did not concur with recommendation 2-1 in Chapter 2 that the Region report the
backlog of NPDES permit applications as a material weakness in the next annual FMFIA
assurance letter to the EPA Administrator. The Region acknowledged the backlog and stated that
a strategic plan has been developed and is being implemented to address the backlog.

We have changed the recommendation to state that the Region report the backlog of NPDES
permit applications as a management control deficiency instead of a material weakness in the next
annual FMFIA assurance letter to the Administrator for EPA’s Integrity Act Report. We believe
that the large backlog of permit applications is an indicator that the NPDES Permit Program is
not achieving its intended results and should be reported as a management control deficiency.
While the strategic plan is a positive step toward correcting the problem, the Region
acknowledged that the Plan will not substantially reduce the backlog by fiscal 1999.




                                                iv               Report No. E1HWF7-10-0012-8100076
                                           TABLE OF CONTENTS


                                                                                                                                                          Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
        PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          1
        PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  4

2 - PERMITS NOT ISSUED OR RENEWED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
       SOME PERMITS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
       PERMITS NOT ISSUED OR RENEWED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
       UNPERMITTED DISCHARGERS ADVERSELY AFFECT WATER QUALITY . . . . . . . . . . . . . . . . . 9
       PRIOR METHODS WERE INSUFFICIENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
       REGIONAL ACTION TO ADDRESS THE PERMIT BACKLOG . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
       REGION COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
       OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

3 - COMPLIANCE MONITORING COULD BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                           17
       COMPLIANCE INSPECTION ACTIVITIES COULD BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . .                                                         18
       CITIZEN COMPLAINTS NEED TO BE ADDRESSED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            20
       SOME DISCHARGERS NOT ADEQUATELY REGULATED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                    21
       SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        27
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    27
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         28

4 - ENFORCEMENT AGAINST SIGNIFICANT VIOLATORS COULD BE IMPROVED . . . . . . . . . . . . . . . .                                                                 29
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             29
       NO FORMAL ENFORCEMENT ACTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   31
       ENFORCEMENT ACTION NOT TIMELY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    36
       INEFFECTIVE MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        37
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    38
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         38

5 - MANAGEMENT REPORTING SYSTEM COULD BE MORE CURRENT AND COMPLETE . . . . . . . . .                                                                            39
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             39
       INFORMATION ON NEW PERMITS WAS NOT INPUT TIMELY OR COMPLETELY . . . . . . . .                                                                            40
       QNCRs ARE INEFFECTIVE AS AN ENFORCEMENT TOOL . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                   41
       REGIONAL GUIDANCE NEEDS IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            42


                                                                                                         Report No. E1HWF7-10-0012-8100076
            RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
            REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43


APPENDICES

A - AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

B - ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

C - REGION RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

D - REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59




                                                                                                       Report No. E1HWF7-10-0012-8100076
                 CHAPTER 1
                 INTRODUCTION



PURPOSE      The purpose of the audit was to determine whether the Region
             effectively regulated point sources discharging pollutants into the
             water of the United States. The audit focused primarily on those
             dischargers in the nondelegated States of Alaska and Idaho.

             The specific objectives were to determine whether the Region:

             •      Issued required NPDES permits for all municipal and
                    industrial dischargers.

             •      Regulated dischargers to comply with permit conditions
                    through effective compliance monitoring activities.

             •      Took appropriate and timely enforcement actions against
                    permittees in SNC in the States of Alaska and Idaho, and
                    Federal facilities in the State of Washington.

             •      Maintained a management reporting system that was current
                    and complete for dischargers in the States of Alaska and
                    Idaho.


BACKGROUND   The Federal Water Pollution Control Act of 1972 initiated a broad
             Federal effort to restore and maintain the Nation’s waterways,
             including the creation of a permit program to regulate and reduce
             point source pollution. (See graphic on the next page for types of
             point source dischargers.) Congress reauthorized and renamed the
             Act in 1977 to the Clean Water Act and amended it in 1987.

             The NPDES Permit Program provides the first major Federal direct
             enforcement authority against polluters. It is illegal for point
             sources to discharge pollutants into the nation’s navigable waters
             without a permit. The purpose of the permit is to control and
             eliminate water pollution, and to focus on the pollutants determined
             to be harmful to receiving waters and on the sources of such
             pollutants.

                           1                Report No. E1HWF7-10-0012-8100076
                        A point source is defined at 40 CFR 122.2 as “any discernible,
                        confined, and discrete conveyance, including but not limited to, any
                        pipe, ditch, channel, tunnel, conduit, well, discrete fissure,
                        container, rolling stock, concentrated animal feeding operation,
                        landfill leachate collection system, vessel or other floating craft
                        from which pollutants are or may be discharged.”

Compliance Monitoring   Section 309 of the CWA authorizes EPA to bring civil or criminal
and Enforcement         actions against those who violate their NPDES permit conditions.
                        EPA promotes a systematic approach to compliance monitoring and
                        enforcement with the objective of achieving consistent national
                        implementation of the NPDES Permit Program established by the
                        CWA. EPA uses the Enforcement Management System (EMS) as
                        a framework for the management of the enforcement program. The
                        EMS constitutes a system for collecting, evaluating, and translating
                        compliance information into timely and appropriate enforcement
                        actions.

Management Reporting    Reporting requirements for the NPDES were implemented in
                        August 1985 with the publication of 40 CFR 123. The reporting
                        requirements included the QNCR as the tracking mechanism for
                        major facilities that violate their permit limits, schedules, reporting
                        requirements, or formal enforcement actions.



                                       2                Report No. E1HWF7-10-0012-8100076
                          In October 1985, the PCS Policy Statement established the PCS as
                          the data base for NPDES reporting. The PCS was established to
                          provide an overall inventory for the NPDES Permit Program. The
                          data gathered in the PCS is to be used to: (i) respond to Congress
                          and the public; (ii) encourage a proper EPA/State oversight role by
                          identifying major permit violators; and (iii) serve as an operational
                          and management tool for tracking permit issuance, compliance, and
                          enforcement actions. Beginning in fiscal 1990, QNCRs were
                          generated by the PCS.

Water Quality Standards   Congress amended the CWA with the Water Quality Act of 1987.
Required                  The amendments outlined a strategy to accomplish the goal of
                          meeting water quality standards set by the States. EPA’s guidance
                          document states “A water quality standard consists of three
                          elements: (i) the designated beneficial use or uses of a waterbody
                          or segment of a waterbody; (ii) the water quality criteria necessary
                          to protect the use or uses of that particular waterbody; and (iii) an
                          antidegradation policy.”

                          States are required to adopt additional controls (water quality based
                          limitations) on point source discharges that are stricter than
                          technology-based limits (minimum level of pollutant controls)
                          where water quality standards are not met. Under the CWA, this is
                          done through a waste load allocation calculated from a total
                          maximum daily load (TMDL) of pollutants for a waterbody.

The Region’s NPDES        The NPDES Permit Program in the Region is performed by the
Responsibilities          NPU and the NPDES Compliance Unit in the Office of Water. The
                          two units oversee the delegated States’ (Oregon and Washington)
                          NPDES Permit Program. The two units have permitting and
                          compliance responsibility for: (i) the nondelegated States of Alaska
                          and Idaho; (ii) Federal facilities in the State of Washington; and (iii)
                          Tribal lands in the States of Oregon and Washington.

                          The NPU is responsible for receiving and reviewing permit
                          applications, drafting and issuing permits, renewing permits,
                          tracking permit data in PCS, managing the municipal sludge and
                          pretreatment programs, and reporting on program accomplishments
                          to the Office of Water in EPA Headquarters.

                          The NPDES Compliance Unit is responsible for tracking permit
                          conditions in PCS, monitoring discharger compliance, scheduling
                          compliance inspections, enforcing compliance and reporting
                          noncompliance, and reporting on program accomplishments to the

                                         3                Report No. E1HWF7-10-0012-8100076
              Office of Enforcement and Compliance Assurance in EPA
              Headquarters.


PRIOR AUDIT   There have been no audits performed on the Region’s NPDES
COVERAGE      Permit Program. A special review was conducted and a report
              (No. E2AWP2-10-0002-2400024) was issued on March 12, 1992
              regarding an improperly issued NPDES permit to a discharger in
              Alaska.




                           4              Report No. E1HWF7-10-0012-8100076
         CHAPTER 2
PERMITS NOT ISSUED OR RENEWED



      The Region did not issue or renew most of the required NPDES
      permits for municipal and industrial dischargers in the States of
      Alaska and Idaho. While it issued 33 permits in the past 2½ years,
      there were 1,000 applications from dischargers waiting to be
      processed. Seventy percent of these applications were received
      over 4 years ago. Dischargers without permits were not subject to
      regulation. Dischargers operating under administratively extended
      permits that were written prior to the Water Quality Act of 1987
      were not subject to these more stringent requirements. Regional
      information for three watersheds in the States of Alaska and Idaho
      identified dischargers without current permits that were
      contributing to water quality problems. We attribute the large
      backlog of applications principally to a Regional decision, made
      with EPA Headquarters, Office of Water’s knowledge, to focus
      management attention and resources on a few selected permits and
      watershed permitting.

      To address the permit backlog, the Region issued a Comprehensive
      Plan in April 1997 that sets out a 3-year plan (fiscals 1997-1999)
      “that prioritizes the permits, implements innovative policies, relies
      on partnerships, and lays the foundation for issuing permits for the
      period after the completion of this plan (year 2000 +).” While the
      Plan is a positive step toward addressing the problem, the Region
      acknowledges that the Plan will not substantially reduce the
      backlog in the next 3 years and “with current resources, will result
      in NPU addressing only 6% of the total universe of permits and
      39% of all major dischargers in Idaho and Alaska.” Also, our
      review disclosed that during the first year (fiscal 1997) several tasks
      critical to the success had not been performed. Accordingly, we
      believe that the RA needs to: (i) report the permit issuance backlog
      as a deficiency in the next Federal Manager’s Financial Integrity
      Act assurance letter to the Administrator; and (ii) aggressively
      monitor all tasks to help assure that the Region meets its targets for
      permit issuances through fiscal 1999.


                     5                Report No. E1HWF7-10-0012-8100076
BACKGROUND   The CWA established the NPDES Permit Program to regulate and
             reduce point source pollution. It is illegal for point sources to
             discharge pollutants into the nation’s navigable waters without an
             NPDES permit. The purpose of the permit is to control and
             eliminate water pollution, and to focus on the pollutants determined
             to be harmful to receiving waters. Regulated pollutants are
             conventional pollutants, such as suspended solids; nonconventional
             pollutants, such as ammonia; and toxic pollutants, such as
             individual heavy metals and toxic organic compounds.

             40 CFR Subpart B, Section 122.21 states any person who
             discharges or proposes to discharge pollutants ... shall submit a
             complete application:

                    C       for a new discharge, at least 180 days before the
                            date on which the discharge is to commence.

                    C       for permittees with current effective permits, 180
                            days before the existing permit expires.

             If the Region does not issue a permit to a new discharger before the
             discharge commences, the discharger is in violation of the CWA.
             Also, if a discharger does not submit an application prior to the
             expiration date of the existing permit, it is in violation of the CWA.

             If a current discharger submits an application 180 days before its
             permits expires, the current permit is automatically
             “administratively” extended until the Region acts on the permit
             application. Administratively extended permits require the
             discharger to continue to meet its current permit effluent limits,
             monitoring and reporting requirements. However, if the permit was
             written prior to the Water Quality Act of 1987, the limits derived
             from additional or more stringent State water quality standards are
             not imposed.

             Until recently, for purposes of prioritizing permit issuance and
             oversight, municipal and industrial dischargers were divided into
             “major” and “minor” sources. Major municipal dischargers were
             those which have a design or actual flow of one million gallons per
             day or greater, a service population of 10,000 or greater, or a
             significant impact on water quality. Industrial dischargers were
             classified as “majors” through a rating system which allocates
             points in various categories, such as flow, pollutant loadings,

                            6               Report No. E1HWF7-10-0012-8100076
                      potential public health impacts, and water quality factors. The
                      watershed approach focuses the Region on all the dischargers in a
                      designated watershed, regardless of the major or minor
                      classification.

NPDES Watershed       In a March 1996 memorandum, EPA Headquarters, Office of
Approach              Water provided guidance on issuing permits focusing on the
                      “watershed” approach. It describes a holistic approach where
                      decisions about point source controls are based on an overall
                      assessment of environmental priorities and concerns within a
                      watershed. This is accomplished by developing a watershed
                      management plan and issuing permits in accordance with the
                      priorities and management strategies described in the plan. This
                      strategy emphasizes permit development for both major and minor
                      dischargers that pose a significant environmental threat to a basin.
                      While major dischargers often remain high priorities for permit
                      issuance, minor dischargers can take on increased importance.

                      The March 1996 memorandum also recognizes that there will be
                      some initial backlog in issuing permits while setting up and
                      implementing watershed plans and schedules. However, the
                      guidance indicates that the permit backlog should be eliminated
                      within a reasonable period of time.

Permit Complexity     Today’s permits are more complex than those in years past. In
                      addition to technology-based limits (minimum level of pollutant
                      controls) applicable to all sources, permits must address limits
                      derived from additional or more stringent State water quality
                      standards. These pollutant-specific standards are established
                      pursuant to the CWA to achieve or maintain the beneficial uses of a
                      particular waterway as determined by the State. Therefore, water
                      quality based limitations are used when it has been determined that
                      more stringent limits than technology based effluent limits must be
                      applied to a discharge in order to protect “designated use” of the
                      receiving waters.


SOME PERMITS ISSUED   The Region issued 33 permits to municipal and industrial
                      dischargers for Alaska and Idaho during the period October 1994
                      through March 1997. We examined 18 of the 33 issued permits to
                      determine if the permit conditions were appropriate. We concluded
                      that for the permits reviewed, the Region developed permit
                      conditions and issued permits in accordance with national


                                    7                Report No. E1HWF7-10-0012-8100076
                     regulations (40 CFR Part 122), including States’ water quality
                     standards.


PERMITS NOT ISSUED   A large backlog of unprocessed permit applications had built up
OR RENEWED           over the years and 70 percent were more than 4 years old. As of
                     March 31, 1997, the age of these applications was as follows:

                     Applications                 Dates Received by the Region             Age

                        25                    October 1996 through March 1997          less than 6 months
                       126                    October 1994 through September 1996      1 to 2 years
                       150                    October 1992 through September 1994      3 to 4 years
                       699                    Before October 1992                       over 4 years
                     1,000

                     As summarized below, the backlog included applications for:
                     (i) applications received, no permit issued (i.e. new dischargers);
                     (ii) dischargers with expired permits; and (iii) dischargers whose
                     permits were administratively extended.

                                                               AK                ID              Total

                     Applications received,
                     no permit issued                          287               170              457

                     Permits expired and not
                     administratively
                      extended                                 184               91               275

                     Permits administratively
                     extended                                  108               160              268


                     TOTAL APPLICATIONS THAT
                     NEED NEW OR REISSUED
                     PERMITS                                   579               421             1,000



                     While EPA’s latest guidance on issuing permits provides for less
                     emphasis on major dischargers, majors generally have the greatest
                     point source impact on water quality. For applications received
                     since October 1992, we reviewed a judgment sample of 52 to
                     obtain a perspective on the mix of major and minor dischargers.
                     We found that 15 of 48, or 31 percent, of the valid applications
                     were from major dischargers (4 of the sampled applications were
                     for dischargers no longer in business as of March 31, 1997).
                     Further, 3 of these 15 major dischargers were operating without a
                     current permit in violation of the CWA and 12 had administratively
                     extended permits that expired between 1989 and 1997.

                                              8                Report No. E1HWF7-10-0012-8100076
UNPERMITTED                    To obtain a perspective on the environmental significance of not
DISCHARGERS                    issuing or renewing permits, we reviewed Regional information on
ADVERSELY AFFECT               water pollution problems in six of the eight watersheds in the States
WATER QUALITY                  of Alaska and Idaho. The Region prepared summaries for these
                               watersheds that identified point source dischargers that caused
                               water impairments. Regional information on three watersheds
                               identified dischargers without current permits that were
                               contributing to water quality problems.

Unalaska Bay, Alaska           The Unalaska Bay watershed has been designated as “impaired
                               waters” by the Alaska Department of Environmental Conservation.
                               The Bay has approximately 2 square miles that are heavily
                               degraded, 12 square miles that are moderately degraded, and 25
                               square miles that are slightly degraded. The watershed summary
                               identified 10 point source dischargers (5 majors and 5 minors) as
                               pollution sources. All of these point source dischargers were
                               required to have a permit. We determined that four minor
                               dischargers were operating without permits. In addition, two
                               dischargers (one major and one minor) were operating with
                               administratively extended permits. The administratively extended
                               permits were extended prior to the State’s current water quality
                               standards being issued; and it is likely they do not address current
                               effluent limits necessary to protect or improve this impaired
                               watershed. Timely Regional action on permits for 6 of the 10 point
                               source dischargers in this impaired watershed is necessary.

Boise River Watershed, Idaho   The watershed summary indicates that fisheries and riparian habitat
                               are at risk along the entire length of the Boise River due to
                               development pressures and flooding concerns. The summary
                               reported that the River from the City of Boise downstream is more
                               degraded and the severity of the problem is rated high. The major
                               point source dischargers are: (i) wastewater treatment plants for
                               the Cities of Boise, Nampa and Caldwell; (ii) Armour Meats, an
                               industrial discharger; and (iii) the City of Boise’s storm water.
                               Since the five administratively extended permits for these
                               dischargers were issued prior to the Water Quality Act of 1987, it is
                               likely they do not meet the State’s current water quality standards.
                               Therefore, timely Regional action on these permits is necessary to
                               protect or improve water quality.

Coeur d’Alene Basin            The South Fork Coeur d’Alene River is identified as the most
Watershed, Idaho               contaminated river in the Region. The River is currently listed as
                               “water quality limited” as a result of point and nonpoint source

                                             9                Report No. E1HWF7-10-0012-8100076
                     loads of heavy metals. There are 9 major and 11 minor point
                     source dischargers in the river drainage. Of the nine major permits,
                     two were current, six were administratively extended, and one was
                     expired. The discharger with the expired permit has been operating
                     without a permit for 17 years. Since the six administratively
                     extended permits were issued prior to the Water Quality Act of
                     1987, it is likely they do not meet the State’s current water quality
                     standards.




                             Mining Operation in the Coeur d’Alene Watershed



PRIOR METHODS WERE   We concluded that the large backlog of applications developed
INSUFFICIENT         primarily because the Region had not focused management
                     attention and the necessary resources over the last several years to
                     issue the required permits. The Region advised it did not issue
                     more than 33 permits in the last 2 ½ years because it focused its
                     resources on a few complex and controversial permits where
                     dischargers challenged the permit conditions. These dischargers
                     were primarily major permittees contributing to significant
                     environmental problems. We are aware that the Region’s focus on
                     a few selected permits during a period of increasing unprocessed

                                   10               Report No. E1HWF7-10-0012-8100076
                     applications was done with EPA Headquarters, Office of Water’s
                     knowledge.

                     While the Region’s explanation is acknowledged, we noted that
                     there were 26 employees working on permits for some period of
                     time during the 2 ½ years but only 12 of them issued permits. A
                     dramatic increase in permit writer productivity and/or innovative
                     methods will be needed to reduce or eliminate the backlog.


REGIONAL ACTION TO   To the Region’s credit, it recently addressed the permit backlog
ADDRESS THE PERMIT   problem as part of a comprehensive review of the activities of its
BACKLOG              NPU. As a result of this review, in April 1997 it issued a
                     Comprehensive Plan (the Plan) for addressing the permit backlog
                     during fiscal 1997 through 1999. The Plan identified the significant
                     backlog of expired permits and new source applicants as illustrated
                     by the following statement from the Plan:

                                     NPU recognizes this significant workload and has
                                     responded with a three year plan that prioritizes the
                                     permits, implements innovative policies, relies on
                                     partnerships, and lays the foundation for issuing
                                     permits for the period after the completion of this
                                     plan (year 2000 +). Over the next three years we
                                     plan to issue permits for sources selected largely by
                                     their environmental significance and their location in
                                     high priority watersheds.

                                     The plan sets an aggressive permit writing target for
                                     the next three years which, with current resources,
                                     will result in the NPU addressing only 6% of the
                                     total universe of permits and 39% of all major
                                     dischargers in Idaho and Alaska.

                     One positive aspect of the Plan, if implemented, is that it will result
                     in current permits for the most environmentally significant
                     dischargers. Also, the Region had issued two general permits
                     (GPs) and expects to issue two more in the near future. GPs cover
                     many dischargers who have applied individually for a permit.
                     Therefore, one GP will eliminate many applications from the
                     backlog. Also, the Region is currently working on the data base to
                     identify dischargers that are no longer in business and need to be
                     deleted from the data base. However, as reported by the NPU,


                                   11                Report No. E1HWF7-10-0012-8100076
                          even if the Region completes all the tasks as identified in the Plan, it
                          will not eliminate the backlog in the foreseeable future.

Federal Manager’s         Since the significant permit backlog will not be eliminated in the
Financial Integrity Act   foreseeable future, we believe that the FMFIA process requires that
                          the RA report the backlog to the EPA Administrator as a deficiency
                          in management controls. FMFIA requires the RA to annually make
                          a systemic assessment of management controls in the Region that
                          protect programs and resources from fraud, waste and
                          mismanagement, and help control programs to achieve intended
                          outcomes. After the assessment is made, the RA is required to
                          provide personal assurance that management controls are
                          reasonable to ensure the protection of programs, operations, and
                          functions and to notify the Administrator of any deficiencies in
                          management controls.

                          For fiscal 1997, the RA did not report the significant permit
                          backlog in his assurance letter to the EPA Administrator. In our
                          opinion, the backlog is adversely affecting the Region’s ability to
                          meet Office of Water program goals, and is resulting in large
                          numbers of dischargers in the States of Alaska and Idaho violating
                          the CWA. As such, it should have been reported to the EPA
                          Administrator as a deficiency in management controls.

Comprehensive Plan        In order to make progress in permitting the most environmentally
Needs to be               significant dischargers, the Region must complete key tasks in the
Aggressively Monitored    Plan. Since the Plan covers a 3-year period beginning fiscal 1997,
                          we evaluated the status of key tasks identified by the Region to be
                          accomplished in fiscal 1997 related to its goal “To issue permits to
                          facilities that have been strategically targeted for their
                          environmental significance and their location in high priority
                          watersheds.” Based on this evaluation, the Region did accomplish
                          some tasks, but did not accomplish other key tasks as of
                          September 30, 1997 as described below.




                                        12                Report No. E1HWF7-10-0012-8100076
                TASK                       DUE DATE AND STATUS
 1. Identify permits for issuance and     Fiscal 1996. Completed.
 modification for the next 3 fiscal
 years.

 2. Assign the workload to permit         Fiscal 1997. Completed.
 writers.

 3. Permit writers develop individual     June 30, 1997 and update annually.
 schedules for permit development         Not done as of September 30, 1997.
 and issuance.

 4. Issue identified permits over the     Not subject to evaluation since task
 next 3 fiscal years in accordance        3 was not done.
 with the schedule that is developed.

 5. Reevaluate the list of permits and    June 30, 1997 and update annually.
 new applications to be issued.           Not done.
 Reevaluation is a continuous
 process, however, a formal
 reevaluation shall be done mid-fiscal
 year to determine if workload is still
 appropriate. Adjust workload and
 reassign permits accordingly.


The lack of timely completion of some key tasks raises serious
questions whether the Region will achieve its desired results by the
end of fiscal 1999. In our opinion, accomplishment of tasks 3, 4,
and 5 listed in Objective 1 is critical to the Region’s success of
issuing permits for the most environmentally significant dischargers.
By not performing these tasks in fiscal 1997, Regional management
lacks the information necessary to assess progress toward meeting
its goal, and to make necessary workload adjustments in the
remaining years of the Plan.

Also, the Region has not completed tasks for Objective 3 which is
to develop and utilize innovative strategies and improve processes
in order to increase the Region’s ability to issue NPDES permits.
Task 1 provides that the “NPU will convene a team to evaluate
alternative and innovative means of issuing NPDES permits (i.e.
improving processes and approaches to getting the job done).”
This task was to be completed with a report by June 30, 1997. As
of September 30, 1997, the report had not been prepared. Another
task under the Objective is to work with Office of Regional Counsel
(ORC) to investigate and develop strategies to streamline the
responses to legal challenges where possible. The NPU had a
meeting with ORC and identified some problems and possible

                13                  Report No. E1HWF7-10-0012-8100076
                  solutions, but has not finalized any strategies. We believe that
                  Regional management needs to monitor all tasks in the Plan
                  associated with addressing the permit backlog.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                         2-1.    Report the backlog of NPDES permit applications
                                 as a deficiency in the next annual FMFIA assurance
                                 letter to the EPA Administrator.

                         2-2.    Aggressively monitor Objective 1, tasks 3, 4, and 5
                                 in the Plan to help assure issuance of permits to
                                 strategically targeted dischargers by September 30,
                                 1999.

                         2-3.    Monitor the accomplishment of all the tasks
                                 identified in the Plan relating to eliminating the
                                 permit backlog.


REGION COMMENTS   In its response to the draft report, the Region did not concur with
                  recommendation 2-1 that the Region report the backlog of NPDES
                  permit applications as a material weakness in the next annual
                  FMFIA assurance letter to the EPA Administrator. The Region
                  acknowledged the backlog and stated that a strategic plan has been
                  developed and is being implemented to address the backlog. The
                  Region concurred with recommendations 2-2 and 2-3.


OIG EVALUATION    We have changed the recommendation to state that the Region
                  report the backlog of NPDES permit applications as a management
                  control deficiency instead of a material weakness in the next annual
                  FMFIA assurance letter to the Administrator for EPA’s Integrity
                  Act Report. We believe that the large backlog of permit
                  applications is an indicator that the NPDES Permit Program is not
                  achieving its intended results and should be reported as a
                  management control deficiency to the Administrator. While the
                  strategic plan is a positive step toward correcting the problem, the
                  Region acknowledges that the Plan will not substantially reduce the
                  backlog by fiscal 1999.




                                14               Report No. E1HWF7-10-0012-8100076
Agency guidance for preparing assurance letters to the
Administrator states that “Offices should continuously review the
effectiveness of their program strategies and guidance
-- management controls -- in achieving program goals … .” It also
states that “The AA/RA transmittal memo to the Administrator
documents their personal assurance that their Offices’ management
controls reasonably ensure the protection of program, operation,
and functions under their control from waste, fraud, abuse, and
mismanagement.” The memo discusses “the basis for the AA/RA’s
assessment, and formally advises the Administrator of significant
management control problems that impede achievement of major
program goals … .”

OMB Circular No. A-123 “provides guidance to Federal managers
on improving the accountability and effectiveness of Federal
programs and operations by establishing, assessing, correcting, and
reporting on management controls. The Circular is issued under
the authority of the Federal Managers’ Financial Integrity Act of
1982 … .” It states that “Agency managers and employees should
identify deficiencies in management controls … . Agency managers
and staff should be encouraged to identify and report deficiencies,
as this reflects positively on the agency’s commitment to
recognizing and addressing management problems. Failing to
report a known deficiency would reflect adversely on the agency.”

The Circular also states that “Management accountability is the
expectation that managers are responsible for the quality and
timeliness of program performance, increasing productivity,
controlling costs and mitigating adverse aspects of agency
operations, and assuring that programs are managed with integrity
and in compliance with applicable law.”

Our audit identified significant deficiencies related to NPDES
permitting in the following areas which should be reported to the
Administrator.

       C       Timeliness of program performance. The Region
               received 70 percent of the unprocessed applications
               more than 4 years ago. The strategic plan provided
               for addressing only 6 percent of the total universe of
               permits through fiscal 1999. While the plan
               indicates this will result in current permits for the
               most environmentally significant dischargers, it is
               silent on how the Region will address the rest of the

              15              Report No. E1HWF7-10-0012-8100076
              dischargers that need permits according to the Act.
              Further, as disclosed in our audit report, the Region
              has not met all important milestones in the Plan.

       C      Increasing productivity. In the last 2½ years,
              12 permit writers issued only 33 permits (21 major,
              10 minor, and 2 general). A significant increase in
              productivity will be needed to achieve a meaningful
              reduction in the backlog.

       C      Mitigating adverse affects. The Region did not
              effectively regulate dischargers and many
              contributed to water quality problems.

       C      Management of programs in compliance with
              applicable laws. There were 732 dischargers in
              violation of the law because the Region failed to
              issue or renew their permits. In addition, most of
              the 268 dischargers, whose permits were
              administratively extended, were not held to
              requirements of the Water Quality Act of 1987
              because the permits were issued prior to the Act.

We believe that the backlog and related deficiencies described
above impede achievement of major goals of the NPDES Permit
Program and should be reported to the Administrator.




             16              Report No. E1HWF7-10-0012-8100076
            CHAPTER 3
COMPLIANCE MONITORING COULD BE IMPROVED



           The Region could improve its compliance monitoring to help ensure
           that dischargers comply with permit conditions and NPDES
           regulations:

                  Compliance Inspections. The Region did not perform some
                  of the NPDES compliance inspections of major dischargers
                  that it committed to in its MOA with EPA Headquarters.
                  Without compliance inspections, there is an increased
                  opportunity for permit violations to go undetected. In
                  addition, many inspection reports were not timely and
                  actions were not taken on reported problems. As a result,
                  instances of noncompliance were not corrected or not
                  corrected timely.

                  Citizen Complaints. The Region did not have adequate
                  procedures to track citizen complaints, document actions
                  taken on such complaints, and notify citizens of actions
                  taken. Actions were not taken on some complaints related
                  to permit and other NPDES violations which appeared to
                  warrant followup, resulting in potential adverse
                  environmental impact.

                  Some Dischargers Not Adequately Regulated. The Region
                  did not have procedures to ensure that dischargers under
                  storm water and seafood general permits, and minor
                  dischargers were in compliance with permit conditions.
                  Some dischargers violated permit conditions and NPDES
                  regulations, and adversely affected water quality.

           The Region did perform successfully in some other areas of its
           compliance monitoring program. It met its pretreatment inspection
           and audit commitments in inspection years 1995 and 1996, and also
           met its NPDES compliance inspection commitment in 1996 for
           Idaho. The Region's targeting of NPDES inspections generally
           appeared to be consistent with EPA guidance, and the mix of
           NPDES inspection types provided adequate coverage. Also,

                        17              Report No. E1HWF7-10-0012-8100076
                        compliance inspections were generally performed in accordance
                        with EPA’s NPDES compliance inspection manual. In addition, the
                        Region assured that the Whole Effluent Toxicity reports submitted
                        by permittees were reviewed and corrective action was initiated, as
                        necessary.


COMPLIANCE              The Region could improve its compliance inspection activities to
INSPECTION ACTIVITIES   help assure discharger adherence to permit conditions. In
COULD BE IMPROVED       inspection years 1995 and 1996 the Region did not perform some
                        of the inspections of major dischargers that it committed to in its
                        MOAs with EPA Headquarters. In addition, for those inspections
                        performed, many reports were not completed timely and violations
                        identified were not followed up by the Region.

Commitments Were Not    The Region did not meet its compliance inspection commitments in
Met                     1995 for major dischargers in Alaska and Idaho, and in 1996 for
                        dischargers in Alaska:

                                 Year/     Commitment       Actual       Fell
                                 State        (#)            (#)        Short
                                                                       By (%)
                                 1995            86            65       24%
                                 Alaska
                                 1995            65            56       14%
                                 Idaho
                                 1996            81            57       30%
                                 Alaska

                        Although the regulations (40 CFR 123.26) and national EPA
                        guidance (NPDES Inspection Strategy) require all major
                        dischargers to be inspected at least once a year, the Region
                        committed to a lesser number with EPA Headquarters. The Region
                        committed to inspect from 84 to 94 percent (depending on the
                        State and the year) of the major dischargers (excluding placer mine
                        dischargers, whom Headquarters granted the Region a waiver from
                        inspecting due to their remote locations).

                        The Region stated it did not meet its commitments for compliance
                        inspections of major dischargers in 1995 and 1996 because: (i) it
                        used some of its available resources to perform inspections of minor

                                      18              Report No. E1HWF7-10-0012-8100076
                          dischargers that were not planned; and (ii) some dischargers
                          planned for inspection were no longer in business or the discharger
                          was not operating (seasonal operations) when the inspections were
                          planned.

                          Completion of fewer major discharger inspections than required and
                          committed to means less: (i) independent verification of permittee
                          compliance; (ii) development of enforcement information;
                          (iii) improvement of permittee performance; (iv) improvement of
                          data quality assurance; (v) support of permit development; and
                          (vi) maintenance of a regulatory presence for these major
                          dischargers. Considering the value of inspections, and considering
                          that the regulations and guidance require annual inspections of all
                          major dischargers, we believe that the Region should implement
                          controls to assure that, at a minimum, MOA commitments for
                          inspections are met.

Reports Were Not Timely   The reports of inspections were not provided to the Region’s
                          Compliance Unit timely. From the inspection reports submitted for
                          inspection years 1995, 1996, and 1997, we sampled 22 to assess the
                          timeliness of the reports. Nine inspection reports out of our sample
                          of 22 were not submitted to the Region’s Compliance Unit timely.
                          For these nine reports, it took from 64 to 364 days from the
                          inspection to the date the report was received by the Compliance
                          Unit. The average for these nine reports was 123 days.

                          The NPDES Inspection Strategy states that sampling inspection
                          reports should be forwarded to the Compliance Unit within 45 days
                          of the inspection date. For nonsampling inspections, the report
                          should be forwarded within 30 days.

                          When inspection reports are not submitted timely, the Region loses
                          the opportunity to take timely enforcement or followup action on
                          inspections that identify permit noncompliance. To illustrate, one
                          inspection report in our sample that identified permit
                          noncompliance was not forwarded to the Compliance Unit until a
                          year after the inspection. Thus, there was a significant delay in the
                          Unit’s ability to initiate corrective action.

                          The reports were not timely because the inspectors were not aware
                          of the specific criterion for report timeliness. The Region advised
                          that its procedures would be modified to incorporate the timeliness
                          guidelines for submitting inspection reports, and that these
                          guidelines would be emphasized to the inspectors.

                                        19               Report No. E1HWF7-10-0012-8100076
No Followup On       For the 7 of 22 inspections that were submitted to the Compliance
Noncompliance        Unit with identified permit noncompliance, the compliance files did
                     not contain any evidence indicating that the inspection results were
                     followed up by the Unit. Because compliance inspections are one
                     of the primary mechanisms used by the Region to monitor
                     discharger compliance, followup on results is important.

                     The lack of followup on inspection reports was due partly to
                     Compliance Officers considering such followup a lower priority for
                     their time. However, during June 1997, the Region implemented a
                     procedure requiring Compliance Officers to transmit inspection
                     reports to the discharger with a letter pointing out permit
                     noncompliance issues reported by the inspector and directing the
                     discharger to correct the problems or face enforcement action. In
                     our opinion, this action, if routinely followed, will correct the
                     problem of not following up on inspection report results.


CITIZEN COMPLAINTS   The Region’s procedures for documenting and taking action on
NEED TO BE           citizen complaints relating to potential permit and other NPDES
ADDRESSED            violations needed improvement. While Compliance Officers
                     sometimes took action on citizen complaints relating to such
                     violations, we noted other instances where followup was not taken.
                     Also, the Region did not always provide written responses to
                     citizen complaints as required by the regulations.

                     A valuable source of information for identifying permit violators
                     and unpermitted dischargers (NPDES violators) is citizen
                     complaints. Headquarter’s Enforcement Management System
                     (EMS) Manual recognizes that reports and complaints from citizens
                     are potential sources of information for use in an enforcement
                     system. Regulations specify requirements for investigation and
                     response. 40 CFR Part 123.26 states that there should be
                     procedures for receiving and ensuring proper consideration of
                     information submitted by the public about violations. 40 CFR Part
                     123.27 stipulates that EPA should investigate and provide written
                     responses to all citizen complaints about NPDES violations.

                     We attribute the lack of followup on citizen complaints, in part, to
                     the lack of a system to record the complaint and track its
                     resolution. Accordingly, we believe that the Region needs to
                     maintain a log or establish other procedures to ensure citizen
                     complaints are documented and followup actions are taken and


                                   20               Report No. E1HWF7-10-0012-8100076
                              tracked. Also, the Region needs to implement procedures to notify
                              the complainants regarding actions taken.

Citizen Complaints Are A      There were instances where the Region investigated citizen
Good Source Of                complaints and effectively followed up with an enforcement action.
Information                   One involved a construction company working on an Alaska
                              Department of Transportation (DOT) project. There was a citizen
                              complaint in October 1996 which alleged storm water violations on
                              the project. After investigation, the Region issued an
                              Administrative Penalty Complaint to the contractor and DOT.

Some Complaints Did           However, we identified citizen complaints related to NPDES
Not Get Adequate              violations that were not followed up by the Region. The following
Attention                     two examples illustrate the Region’s lack of adequate attention to
                              some citizen complaints:

Coquille Indian Development   There was a citizen complaint about the Coquille Indian
                              Development in Coos Bay, Oregon that was referred by the State to
                              the Region in December 1995. The complaint stated that storm
                              water runoff from the Development had caused a creek and lake to
                              have turbidity problems and become very muddy. The complainant
                              provided pictures to illustrate the problem. Based on our review,
                              we concluded that no followup action had been taken by the Region
                              on this complaint.

City of Tacoma                The Puyallup Indian Tribe complained to the Region in June 1996
                              about an unpermitted discharge by the City of Tacoma on Tribal
                              lands. Historically, the discharge had been a source of sediment
                              loading to Tribal lands. While the Region advised that it was
                              working on an MOA that would address this issue, staff working on
                              the MOA advised they were not aware of the Tribe’s specific
                              complaint, and there was no indication of Regional followup on the
                              complaint.


SOME DISCHARGERS              The Region did not effectively regulate: (i) general storm water
NOT ADEQUATELY                permit dischargers; (ii) general seafood permit dischargers; and
REGULATED                     (iii) minor dischargers. The Region had inadequate and inconsistent
                              procedures for compliance monitoring of dischargers under the two
                              types of general permits. In addition, the Region did not monitor
                              compliance of most minor dischargers, and therefore could not
                              report on compliance of those dischargers as required by regulation.

Background                    EPA classifies dischargers as “major” or “minor” sources. Major

                                            21              Report No. E1HWF7-10-0012-8100076
               municipal facilities are those which have a flow of at least one
               million gallons per day, a service population of at least 10,000, or a
               significant impact on water quality. EPA classifies industrial
               facilities through a separate rating system. The Region is moving
               toward the Watershed approach, in which minor dischargers can be
               just as important as major dischargers.

               The term “storm water” represents large volumes of water that can
               result from rain, snow melt, surface runoff, street washing, and
               other drainage. For over a decade, EPA has attempted to develop a
               workable program to control storm water discharges. Storm water
               from municipal separate storm water sewers and storm water
               associated with industrial point sources are considered point source
               discharges under the CWA, and are addressed under the NPDES
               Permit Program.

               Generally, storm water discharges from industrial sources are
               regulated by general permits. General permits are a management
               tool designed to enable EPA to issue one permit covering a
               specified class of dischargers within a defined geographic area.
               General permits apply the same set of limitations to a group of
               dischargers as would be imposed through individual permits.
               Besides storm water, the Region also issued general permits
               covering Alaska seafood dischargers, oil and gas operators, and
               placer miners. The Region indicated it will probably use more
               general permits in the future, as opposed to individual permits, in
               order to help streamline the permitting process.

Requirements   Regulations (40 CFR 123.26) state that programs shall have
               procedures for receipt, evaluation, retention and investigation for
               possible enforcement of all notices and reports required of
               permittees (and for investigation for possible enforcement of failure
               to submit these notices and reports), and that programs shall
               maintain a schedule of reports required to be submitted by
               permittees.

               The EPA EMS Guide states that regions should have documented,
               in-place pre-enforcement screening procedures that should require
               the forecast of reports due within a specified period of time, and
               also specific guidelines for determining obvious compliance from
               noncompliance. The guidelines should at least establish criteria to
               be used to determine receipt vs. nonreceipt. In addition, there
               should be an identifiable process for determining which dischargers


                             22               Report No. E1HWF7-10-0012-8100076
                        have not applied for permits after being required to do so and for
                        following through in these cases.

                        Regulations (40 CFR Part 122.28) for general permits state that
                        dischargers shall submit a written notice of intent (NOI) to be
                        covered by the general permit. The NOI includes a certification
                        that the discharger has read the permit and will comply with all
                        permit requirements. The Region’s general permits for storm water
                        and seafood include the requirement for submittal of an NOI, as
                        well as various other reporting requirements.

                        Regulations (40 CFR Part 123.45) and national EPA guidance
                        (Final QNCR Guidance) require the Region to annually submit
                        statistical noncompliance reports on nonmajor NPDES permittees
                        indicating the total number reviewed, the number of noncomplying
                        nonmajor permittees, the number of enforcement actions, and
                        number of permit modifications extending compliance deadlines.

General Storm Water     For general storm water permits (covering both major and minor
Permits Not Monitored   dischargers), the Region had no system to track discharger
                        compliance. The Region did not track whether the dischargers
                        required to be covered under the general permits had submitted the
                        required NOIs. Also, it did not track other reporting requirements
                        of general dischargers, such as the preparation or submission of
                        Storm Water Pollution Prevention Plans (SWPPP).

                        There are two reasons for the inadequate monitoring of dischargers
                        under general storm water permits. First, the Region disinvested in
                        the storm water program because it viewed it as a low priority
                        among competing programs. This resulted in the allocation of
                        minimal resources to deal with storm water compliance monitoring
                        and enforcement issues. Second, since many general permits were
                        for minor dischargers, the Region did not input reporting
                        requirements for dischargers under general permits into Permit
                        Compliance System (PCS). Instead, the Compliance Officers were
                        responsible for maintaining a tracking system for the general permit
                        separate from PCS. As a result, we found varying degrees of
                        effectiveness in the different tracking systems used for dischargers
                        under general permits.

Storm Water Affects     There is a disparity between the importance placed on storm water
Water Quality           issues by EPA Headquarters and the Region. Headquarters has
                        emphasized the importance of and placed high priority on storm
                        water issues, yet the Region has disinvested in this program.

                                      23              Report No. E1HWF7-10-0012-8100076
Various studies estimate that about 60 percent of dischargers
required to have storm water permit coverage are not covered (they
have not submitted the required NOI certifying that they have read
the permit and will comply with the requirements). The magnitude
of the environmental impact from point source storm water
discharges indicates that the Region has placed too low of a priority
on the storm water program, and needs to reconsider its decision to
disinvest in storm water compliance issues:

C      In EPA’s Strategic Plan submitted to Congress in
       September 1997, EPA stated that urban runoff is a leading
       cause of water quality problems. Urban runoff causes beach
       closures and shellfish bed closures in coastal areas.
       Discharges from storm drains, sanitary sewers, and
       combined sewers are point source discharges. Controlling
       these sources of pollution will be a major priority for EPA’s
       point source control programs in the coming 5 to 10 years.

C      In a report to the Congress dated March 1995, EPA stated
       that storm water discharges have been linked to one-third of
       all assessed surface water quality impairments nationwide.
       Significant sources of contaminated storm water include
       urban runoff, industrial activities, construction, mining,
       other types of resource extraction, and different commercial
       activities.

C      Storm water runoff from a number of diffuse sources,
       including municipal separate storm sewers and urban runoff,
       are the leading cause of surface water quality impairment
       cited by States. States report that urban runoff/storm
       sewers is the second leading source of water quality
       impairment in lakes and estuaries, and the third leading
       source of water quality impairment in rivers.

C      Alaska reported that urban runoff is the major source of
       impaired rivers and streams, and urban development is also
       the major source of pollution in 26 impaired lakes. The
       State attributes impairments at 34 estuaries partly to urban
       development.

C      The Region reported that besides two sewage treatment
       plants, major pollution sources in the Boise River watershed
       include the many area storm drains. Storm sewers are
       suspected to be a significant contributor to the water quality

              24               Report No. E1HWF7-10-0012-8100076
                                    problems in the Boise River, and several sand and gravel
                                    operations along the river might also contribute to the
                                    degradation of the watershed.

                             Our audit identified several instances where there appeared to be an
                             adverse environmental effect as a result of unregulated point source
                             storm water dischargers in the States of Alaska and Idaho.

S&S Sand & Gravel            The Region received many citizen complaints about a sand & gravel
Extraction Operations        operation in both Juneau and Sitka, Alaska. Both sand & gravel
                             pits were owned by the same operator, S&S. In Juneau, S&S had
                             been discharging without a permit into impaired waters for 10
                             years. For the Sitka operation, S&S first applied for the wrong
                             type of permit, then sent in an inadequate SWPPP, and recently sent
                             in an incomplete application for the correct type of permit.
                             Meanwhile, S&S continued to discharge contaminated storm water.
                             S&S was considered to be uncooperative and has had ongoing
                             complaints about two of its quarries in Alaska. This is an
                             important, high-visibility issue in Sitka. However, the Region did
                             not take any action against these unregulated discharges.

Wal-Mart Construction Site   There were many complaints that excavated soil from a Wal-Mart
                             construction site in Idaho was being dumped along the edge of
                             Sand Creek and other low lying areas, possibly wetlands. The State
                             sent some letters to Wal-Mart and its contractor attempting to get
                             corrective action, but had problems getting them to comply with the
                             regulations. This matter was referred to the Region in February
                             1996, but the Region did not followup.

Bark Mill Expansion Site     There were complaints made by a citizen in late 1996 about a bark
                             mill in Idaho, alleging violations of air quality regulations and CWA
                             Section 404, wetlands regulations. The citizen alleged that the bark
                             mill’s proposed expansion site was surrounded by wetlands and
                             runoff from stored raw bark material would flow directly into a
                             creek and into the wetland area, as well as the old creek bed. The
                             bark mill did not have the required storm water permit, nor had the
                             Region addressed the apparent storm water violations at the mill.

Kenai River Water Study      A publication in early 1997 discussed a water-quality study by State
Findings                     of Alaska researchers in 1994 which raised serious concerns about
                             the health of the Kenai River in Alaska. The study indicated that
                             new roads, shopping centers, and storm sewers might be affecting
                             the Kenai River’s health. The study noted that efforts to deal with
                             one of the main concerns, untreated storm sewer drains, were slow

                                           25               Report No. E1HWF7-10-0012-8100076
                             in development. The Region had not done any followup on this
                             potential storm water-related problem.

Moscow, Idaho Construction   Citizens and the city of Moscow notified the Region about
Site                         unpermitted storm water discharges at a construction site. The site
                             developer apparently had applied for a permit but it was not granted
                             because of missing information on the NOI. The Region sent the
                             developer a letter describing the missing information on the NOI.
                             However, the information was not received and the Region did not
                             take followup action; responsibility for the problem fell to the city
                             of Moscow to enforce compliance. The Lewiston Tribune reported
                             on this issue in December 1995.

Sandpoint, Idaho Highway     In November and December 1994, the State of Idaho informed the
Construction Project         Region of severe erosion and slope failure on a State highway
                             construction project which was covered by EPA’s NPDES General
                             Storm Water Permit. The erosion contributed a significant amount
                             of sediment to tributaries of Sand Creek and associated wetlands,
                             and the State informed the Region that the SWPPP for the project
                             did not meet Federal requirements. The State sent a video to the
                             Region which graphically showed this erosion. The Region did not
                             take any action as a result of the State’s referral.

General Seafood Permits      For seafood general permits, the Region did not adequately track
Not Monitored                compliance of dischargers covered by those permits and did not
                             take action when noncompliance was identified. Although the
                             Region had established a new system for tracking these dischargers,
                             the portion of the system to track reporting requirements had not
                             yet been implemented. The system, however, did identify that
                             almost 10 percent of dischargers required to submit an NOI had not
                             done so, yet no followup action had been taken.

                             Tracking compliance of dischargers under general permits was
                             given a low priority by the Region. When reporting requirements
                             were not tracked, the Region was not alerted to instances of
                             noncompliance with those requirements, and therefore could not
                             initiate enforcement action. In addition, when followup actions
                             were not taken on identified instances of noncompliance, those
                             dischargers were not effectively regulated. Because the Region
                             anticipates issuing more general permits as opposed to individual
                             permits in the future, compliance monitoring of general dischargers
                             will only become more important.



                                           26              Report No. E1HWF7-10-0012-8100076
Minor Dischargers Not   Compliance of minor dischargers was another area that was not
Monitored               adequately monitored by the Region. The Region had not
                        implemented a system for tracking minor discharger compliance. It
                        generally did not review or track Discharge Monitoring Reports
                        (DMRs) for minor dischargers in PCS. As a result, it could not
                        report on the compliance status of these permittees as required by
                        regulation. Also, without tracking and reporting on noncompliance
                        of minor dischargers, the Region was not alerted to instances of
                        noncompliance, and therefore could not initiate enforcement action.
                        The Region did not monitor compliance of most minor dischargers
                        because it considered those dischargers to be a low priority. In the
                        past, EPA generally considered minor dischargers to be a low
                        priority nationwide. However, because the Region is going toward
                        the Watershed approach, compliance monitoring of minor
                        dischargers will become more important.


SUMMARY                 The Region needs to improve its compliance monitoring of
                        dischargers in several areas. The Region should meet its inspection
                        commitments and ensure that reports are submitted timely and
                        followup actions are taken on reported problems. The Region
                        should ensure that appropriate actions are taken on violations
                        reported by citizen complaints. Finally, the Region should establish
                        adequate and consistent procedures to ensure that dischargers
                        under all general permits and minor dischargers are required to
                        comply with permit conditions and NPDES regulations. These
                        improvements are needed to ensure that the Region consistently
                        identifies violators and takes corrective actions.


RECOMMENDATIONS         We recommend that the Regional Administrator:

                               3-1.    Establish controls to assure that the Region meets its
                                       compliance inspection commitments.

                               3-2.    Establish procedures for inspectors to issue timely
                                       reports.

                               3-3.    Assure that the Compliance Officers notify
                                       dischargers of the results of inspections.

                               3-4.    Establish a log or other procedures to ensure that
                                       citizen complaints relating to potential permit and
                                       other NPDES violations are documented, resolution

                                      27              Report No. E1HWF7-10-0012-8100076
                                    of complaints are tracked, and the complainant is
                                    notified of the resolution.

                            3-5.    Commit resources to compliance monitoring
                                    activities for the general storm water permits.
                                    Specifically, resources should be committed to
                                    perform the following activities: (i) reconcile those
                                    dischargers required to submit an NOI and those
                                    dischargers who have submitted an NOI; (ii) send
                                    letters to those dischargers violating the NOI
                                    requirements; (iii) initiate appropriate enforcement
                                    actions; and (iv) track reporting requirements
                                    stipulated by the general permits.

                            3-6.    Establish and implement procedures to ensure
                                    adequate and consistent compliance monitoring of
                                    dischargers under all general permits (particularly
                                    general permits for storm water and seafood) and
                                    minor dischargers. At a minimum, the procedures
                                    should include adequate tracking of: (i) dischargers
                                    required to be covered by permits; and
                                    (ii) discharger submittals of required reports.
                                    Procedures should also include appropriate
                                    enforcement on instances of identified
                                    noncompliance.


REGION COMMENTS      The Region concurred with the recommendations and stated that it
AND OIG EVALUATION   has implemented corrective action. We consider the corrective
                     action to be satisfactory.




                                   28              Report No. E1HWF7-10-0012-8100076
                    CHAPTER 4
        ENFORCEMENT AGAINST SIGNIFICANT VIOLATORS
                  COULD BE IMPROVED


                    The Region did not respond in an appropriate or timely manner to
                    violations by dischargers that were in Significant Noncompliance
                    (SNC) with NPDES permit conditions. The Region did not take
                    formal enforcement action against 19 of the 25 dischargers in SNC
                    for 1 or more quarters during the period October 1994 through
                    December 1996. In addition, we reviewed files for 10 of those
                    dischargers that were in SNC for 2 or more consecutive quarters
                    and concluded that the Region did not have written justification for
                    not taking formal enforcement action against 9 dischargers. EPA’s
                    enforcement guidance requires that formal enforcement actions be
                    taken against dischargers in SNC. At a minimum, the guidance
                    requires a written justification in those rare instances when formal
                    enforcement action is not taken. These conditions occurred
                    because the Region did not have effective management controls to
                    ensure that either appropriate and timely enforcement actions were
                    taken or that decisions to take no action were justified and
                    documented. Failure to take appropriate enforcement action
                    against violators weakens the effectiveness of the NPDES Program
                    to protect public health and the environment.

                    The Region took formal enforcement action consistent with EPA
                    guidance against 6 of the 25 dischargers in SNC during the period
                    of our audit. However, actions against three of the dischargers did
                    not meet EPA’s timeliness guidelines of 2 months after identifying
                    the violation. For the three dischargers, formal enforcement action
                    was not taken for 5 to 8 months after the violations became known
                    to the Region. More timely enforcement action could lead to
                    quicker return to compliance with permit requirements.


BACKGROUND          The ultimate goal of the enforcement program is to improve
                    environmental quality through compliance with environmental laws.
                    EPA guidance states that the NPDES Permit Program will be
                    effective only to the extent that EPA is able to systematically take
                    timely and appropriate enforcement action against violators to


                                  29              Report No. E1HWF7-10-0012-8100076
                      achieve full compliance with the CWA. EPA’s enforcement
                      program is designed to accomplish four major objectives:

                              C       identify instances of noncompliance;
                              C       return the violator to compliance;
                              C       recover any economic advantage obtained by the
                                      violator’s noncompliance; and
                              C       deter other regulated dischargers from
                                      noncompliance.

Enforcement Actions   Enforcement ranges from simple informal actions, such as phone
                      calls and Letters of Violation, to formal Administrative Orders, and
                      civil and/or criminal judicial actions. EPA can also seek substantial
                      monetary penalties which promote environmental compliance and
                      help protect public health by deterring future violations by the same
                      discharger and by other members of the regulated community.

                      Because there are powerful disincentives to compliance, such as
                      costly pollution control measures and inconvenient compliance
                      measures, enforcement evens the scale by adding a powerful
                      incentive in favor of compliance. Penalties promote a national level
                      playing field by ensuring that violators do not obtain an unfair
                      economic advantage over competitors who have done whatever
                      was necessary to comply on time.

                      EPA uses the EMS to translate compliance information into timely
                      and appropriate enforcement actions. The EMS stipulates
                      minimum requirements for each of the seven basic principles
                      included in an effective enforcement program, such as the pre-
                      enforcement screening process and the formal enforcement
                      evaluation. The EMS also includes a response guide that matches
                      types of violations to a narrow range of appropriate enforcement
                      responses.

                      40 CFR 123.45 provides requirements for listing discharger
                      violations and resulting regulatory enforcement action on Quarterly
                      Noncompliance Reports (QNCR). This regulation includes
                      reporting requirements for violations that meet specific, quantifiable
                      reporting criteria, as well as for violations that are more difficult to
                      quantify but are of sufficient concern to be considered reportable.
                      A subset of QNCR violations are identified as SNC. A discharger
                      reported in SNC indicates a violation of sufficient magnitude and/or
                      duration to be considered a high enforcement response priority. If
                      the discharger is still considered in SNC after 2 quarters and no

                                    30                Report No. E1HWF7-10-0012-8100076
                     formal enforcement action has been taken, the discharger is placed
                     on the Exceptions List (EL).

Enforcement          Headquarter’s EMS Manual requires an enforcement response to
Requirements         all SNC violations in a timely and appropriate manner. Unless there
                     is supportable justification, the response must be a formal
                     enforcement action or a return to compliance by the permittee
                     generally within one quarter from the date that the SNC violation is
                     first reported on the QNCR. The EMS intends that a formal
                     enforcement action be initiated before the violation appears on the
                     next QNCR, generally within 60 days of the first QNCR. QNCRs
                     are not available until 60 to 90 days after the end of quarter;
                     enforcement action is not expected to be initiated until the QNCR is
                     available. In the rare circumstances when formal enforcement
                     action is not taken, the Region is expected to have a written record
                     that clearly justifies why the alternative action (informal
                     enforcement action or permit modification) was more appropriate.
                     The EMS Manual does not provide an option for taking no action
                     against SNC violators.

                     According to the NPDES Permit Writer Training Manual, although
                     there are some legitimate justifications for dischargers appearing on
                     the EL, the EL generally indicates dischargers for which the Region
                     failed to handle enforcement in a timely and appropriate manner.


NO FORMAL            The Region did not take formal enforcement action against 19 of
ENFORCEMENT ACTION   the 25 dischargers in SNC for 1 or more quarters during the period
                     October 1994 through December 1996. EPA’s guidance states that
                     only in rare circumstances should EPA not take formal enforcement
                     action against dischargers in SNC. In our opinion, not taking
                     formal enforcement action on over 75 percent of the dischargers in
                     SNC does not meet the intent of this guidance. Of the 19
                     dischargers without formal enforcement actions, 10 dischargers
                     remained in SNC for 2 or more consecutive quarters, placing them
                     on the EL. Also, for 9 of these 10 dischargers, the Compliance
                     Officer did not document the decision not to take formal action in
                     the compliance file, nor was there any indication of formal
                     concurrence in this decision by the Region’s Compliance Unit
                     Chief.

                     If appropriate and timely enforcement action is not taken against
                     dischargers in SNC, there is increased risk that dischargers will not
                     return to compliance timely and the deterrent effect of enforcement

                                   31               Report No. E1HWF7-10-0012-8100076
                         is lessened, increasing the risk to public health and the environment.
                         Without documentation justifying decisions not to take formal
                         action, Regional management lacks a clear decision-making trail
                         necessary to provide assurance that Compliance Officers are
                         making enforcement decisions consistent with enforcement
                         guidance, leaving it open to scrutiny and, in our opinion, loss of
                         credibility.

                         The following are five examples of conditions that we found with
                         respect to the absence of formal enforcement actions and the lack
                         of documentation justifying decisions to take no such actions. The
                         Region did not take any action, formal or informal, against these
                         dischargers. These examples are from the ten dischargers
                         remaining in SNC for 2 or more consecutive quarters without
                         formal enforcement action, resulting in the dischargers being
                         reported on the EL. Our conclusions are based on a review of the
                         compliance files and discussions with the responsible Compliance
                         Officers.

DOD Army - Fort Lewis,   This discharger was in SNC for the third and fourth quarters of
WA                       fiscal 1995, and continued to violate permit conditions through
                         April 1997. However, no enforcement action was taken against the
                         discharger nor was there documentation in the file justifying the
                         lack of action.

                         As early as June 1995, the Army notified the Region that it was
                         going to continue to exceed its permit limit for Chlorine (Cl). The
                         Army justified its violation on the basis that it was necessary to
                         control bacterial contamination. In January and February 1996,
                         citizen lawsuits against Fort Lewis lead the Army to send a letter to
                         the Compliance Officer requesting EPA’s views on its compliance
                         posture. In response, the Compliance Officer advised the Army
                         that it had violated its NPDES permit over the past several years,
                         and that the violations collectively were cause for concern. The
                         DMRs through April 1997 show continued permit limit violations
                         for Cl. According to the Compliance Officer, the Army assured the
                         Region it would construct a new dechlorination facility.

                         EPA’s enforcement guidance requires a formal enforcement action
                         against a discharger in SNC. In the rare circumstances when formal
                         enforcement action is not taken, the guidance requires
                         documentation justifying this decision. In our opinion, at the very
                         least an informal enforcement action was required when the Army
                         informed the Region of its intent to violate the Cl permit limit. It

                                       32               Report No. E1HWF7-10-0012-8100076
                          would also have been reasonable to negotiate a Compliance
                          Agreement stipulating enforceable milestones for completion of the
                          new dechlorination facility.

International Seafoods,   This discharger was in SNC from the second quarter of fiscal 1996
AK                        through the first quarter of fiscal 1997 for violating its permit limits
                          for its seafood processing waste discharge. In addition, the
                          discharger continued to appear as a violator on the QNCR for the
                          quarter ended March 1997. However, no enforcement action was
                          taken against the discharger nor was there any documentation in the
                          file justifying the lack of action.

                          The permit violations were the result of the discharger installing a
                          new fish powder processing unit that increased Total Suspended
                          Solids and Oil and Grease. The Compliance Officer believed that
                          the current permit limits were inappropriate and needed to be
                          revised since the discharger had changed its processing method.
                          The discharger did not submit an application for permit reissuance
                          until after the new unit went on line (permit expired in January
                          1997).

                          EPA’s enforcement guidance requires formal enforcement action in
                          the above circumstances to assure that the regulated community
                          complies with permitting requirements. In the rare circumstances
                          when formal enforcement action is not taken, the guidance requires
                          documentation justifying this decision. In our opinion, it was
                          reasonable to expect the new process to cause the discharger to
                          violate its permit effluent limits; however, the discharger should
                          have submitted the application 6 months before the new process
                          went on line. Therefore, it would have been appropriate for the
                          Region to pursue an enforcement action.




                                        33                Report No. E1HWF7-10-0012-8100076
                                          International Seafoods Processing Plant


City of Twin Falls, ID      This discharger was in SNC from the third quarter of fiscal 1996
                            through the first quarter of fiscal 1997 for violating its permit
                            effluent limits for nitrogen and ammonia. The discharger returned
                            to compliance for the quarter ended March 1997. During the
                            period of SNC, no enforcement action was taken against the
                            discharger nor was there any documentation in the file justifying the
                            lack of action.

                            The Compliance Officer was considering an enforcement action,
                            and had been waiting to see if the discharger would be on the SNC
                            list for the second quarter of fiscal 1997. While EPA’s enforcement
                            guidance provides some latitude for violators that return to
                            compliance, the guidance also requires documentation justifying a
                            decision to take no action. In our opinion, a discharger in SNC for
                            3 consecutive quarters requires at the very least an informal
                            enforcement action, such as a Letter of Violation.

Cook Inlet Processing, AK   This discharger was in SNC from the second quarter of fiscal 1995
                            through the first quarter of fiscal 1996 for violating its permit
                            effluent limits for both its seafood processing waste discharge and
                            its sanitary wastewater discharge. In addition, the discharger
                            continued to appear as a violator on the QNCR for the quarter

                                          34               Report No. E1HWF7-10-0012-8100076
                          ended March 1997. However, no enforcement action was taken
                          against the discharger nor was there any documentation in the file
                          justifying the lack of action.

                          Concerning the sanitary wastewater discharge, the Compliance
                          Officer believes that the discharge has no impact on the
                          environment and has been just trying to get the discharger to get its
                          treatment system to work so it could meet its permit limits.
                          Apparently the permittee was working on the problem, but had
                          been working on it for 7 years. Although the EL stated that this
                          violation was under enforcement review, the Compliance Officer
                          does not intend to take any informal or formal enforcement action
                          regarding this sanitary discharge.

                          EPA’s enforcement guidance requires a formal enforcement action
                          against a discharger in SNC. In the rare circumstances when formal
                          enforcement action is not taken, the guidance requires
                          documentation justifying this decision. In our opinion, the guidance
                          requires the Region to go on record concerning the violations for
                          the sanitary wastewater discharge, by at least taking an informal
                          enforcement action, such as a Letter of Violation.

Faros Seafoods, Inc, AK   This discharger was in SNC for the first and second quarters of
                          fiscal 1995 for failure to submit DMRs. During this period, no
                          enforcement action was taken against the discharger nor was there
                          any documentation in the file justifying the lack of action.

                          The Compliance Officer believed that since the discharger was very
                          small, it would not have the resources to pay a penalty without
                          going into default. The Compliance Officer evidently knew the
                          discharger was on the verge of shutting down, and the discharger
                          did eventually cease operations.

                          EPA’s enforcement guidance does not indicate that enforcement
                          can be waived for economic reasons. The guidance directs that in
                          the rare circumstances when formal enforcement action is not
                          taken, documentation is required justifying this decision. In our
                          opinion, even though it was a small discharger by comparison, it
                          was classified as a “major” discharger by EPA, and having a non-
                          quantified discharge for several months and not being cited by the
                          Region is questionable. The Region should have at least taken an
                          informal enforcement action, such as a Letter of Violation.



                                        35               Report No. E1HWF7-10-0012-8100076
                                       Faros Seafoods Unloading Area



ENFORCEMENT ACTION   Formal enforcement action was taken against 6 of the 25
NOT TIMELY           dischargers in SNC for 1 or more quarters during the period
                     October 1994 through December 1996. The enforcement
                     mechanisms used were consistent with Agency guidance.
                     However, actions against three of the dischargers did not meet
                     EPA’s timeliness guidelines of action within 2 months after
                     identifying the violation. For the three dischargers, formal
                     enforcement action was not taken for 5 to 8 months after being
                     reported in SNC. More timely enforcement action could lead to
                     quicker return to compliance with permit requirements.

                     The delays in formal enforcement action against the three
                     dischargers are discussed below:

                            C       Hecla Mining (ID) was reported in SNC for the
                                    fourth quarter of fiscal 1995 through the first
                                    quarter of fiscal 1996. While the Region met with
                                    the discharger in March 1996 to discuss its
                                    violations, an enforcement action (a penalty) was
                                    not proposed until August 1996, or 8 months after
                                    the violations were known to the Region.

                                  36              Report No. E1HWF7-10-0012-8100076
                     C       Sunshine Precious Metals (ID) was reported in
                             SNC for the fourth quarter of fiscal 1996 through
                             the first quarter of fiscal 1997. An enforcement
                             action (a penalty) was not proposed until May
                             1997, or 5 months after the violations were known
                             to the Region.

                     C       The City of Hailey (ID) was reported in SNC for
                             the first and second quarters of fiscal 1996. An
                             enforcement action (an Administrative Order) was
                             not issued until August 1996, or 5 months after the
                             violations were known to the Region.


INEFFECTIVE   We attribute the underlying causes of inadequate enforcement and
MANAGEMENT    documentation for dischargers in SNC to: (i) the Region not
CONTROLS      having sufficient controls to ensure that appropriate and timely
              enforcement actions were taken; and (ii) Regional management not
              emphasizing the importance of Agency guidance requiring formal
              enforcement action against dischargers in SNC. We believe a
              good starting point for corrective action would be for the Region
              to update its written EMS to be consistent with the Headquarter’s
              EMS and the Agency’s enforcement policy for SNC violators. In
              addition, the Region should implement procedures to document
              decisions in those rare circumstances when formal enforcement
              action is not taken. These documentation procedures should
              require written concurrence by Regional management.

              Although EPA Headquarters requires all regions to have a written
              EMS that is consistent with the Headquarter’s EMS, Regional
              management informed us that its EMS Manual was outdated.
              Consequently, it had not required Compliance Officers to follow it.
              Since the EMS is a process to collect, evaluate, and translate
              compliance information into appropriate and timely enforcement
              actions, without a current EMS in place and implemented, the
              Region was not efficiently and effectively performing these
              functions. The Region advised during the audit that it has already
              assigned staff to update its EMS Manual.

              Inadequate documentation occurred because Compliance Officers
              were not required to document in the compliance files decisions
              not to take formal enforcement action against dischargers in SNC.
              Compliance Officers may not be aware of the requirement to

                           37              Report No. E1HWF7-10-0012-8100076
                     document decisions to take no formal enforcement action, or they
                     may not consider it a priority for their time. In addition, decisions
                     were not subject to formal written concurrence by the Region’s
                     Compliance Unit Chief. The Region advised that in the past it
                     used a Violation Notification Form to record enforcement
                     decisions, but use of that form was discontinued several years ago.
                     Review of compliance files revealed that the Region also
                     sometimes used a Record of Decision form to record enforcement
                     decisions in the past.


RECOMMENDATIONS      We recommend that the Regional Administrator:

                            4-1.    Implement controls to ensure that: (i) appropriate
                                    and timely enforcement actions are taken against
                                    dischargers in SNC; and (ii) the importance of
                                    Agency guidance requiring formal enforcement
                                    action against dischargers in SNC is emphasized to
                                    the Compliance Unit staff. As a first step, the
                                    Region should update and implement its EMS
                                    Manual, ensuring its consistency with the
                                    Headquarter’s EMS and the Agency’s enforcement
                                    policy for SNC violators.

                            4-2.    Ensure that all decisions not to take formal
                                    enforcement action against SNC violators are
                                    justified and adequately documented in the
                                    compliance file. This could be accomplished
                                    through a standard Record of Decision form
                                    completed by the Compliance Officer and signed by
                                    the Compliance Unit Chief.

                            4-3.    Implement procedures that require the Compliance
                                    Unit Chief to provide written concurrence in all
                                    decisions to take no formal action against violators
                                    in SNC.


REGION COMMENTS      The Region concurred with the recommendations and stated that it
AND OIG EVALUATION   has either implemented or is in the process of implementing
                     corrective actions. We consider the corrective actions
                     implemented or proposed to be satisfactory.



                                   38              Report No. E1HWF7-10-0012-8100076
                   CHAPTER 5
      MANAGEMENT REPORTING SYSTEM COULD BE MORE
               CURRENT AND COMPLETE


                  The Region’s management reporting system for NPDES permit
                  information is the PCS. The PCS was generally current and
                  complete, except for new or renewed permits. The Region did not
                  input permit effluent limits and reporting requirements into the PCS
                  timely and completely for dischargers receiving new or renewed
                  permits. For four major dischargers, permit effluent limits were not
                  input for an average of 4 months after the permit was issued. Also,
                  for six of the eight new permits, reporting requirements were not
                  input to PCS. Without current and complete permit information,
                  QNCRs generated from the PCS were not an effective tool for
                  identifying violations for dischargers with new or renewed permits.
                  The PCS was not updated timely for new or renewed permits
                  because the Region had not given high enough priority to this
                  effort.


BACKGROUND        The PCS is EPA’s national data base for NPDES data. EPA
                  established the PCS to provide an overall inventory for the NPDES
                  Permit Program. PCS is also used by the Region as an operational
                  and management tool for tracking permit issuance, compliance, and
                  enforcement.

                  Information on a discharger’s permit effluent limits and reporting
                  requirements are intended to be current and complete in PCS.
                  Regional staff are responsible for inputting effluent limits and
                  reporting requirements for permits into PCS. Regional practice
                  provides that input is to be documented by the staff initialing and
                  dating the new or renewed permits at the time of entry into PCS.

                  The PCS generates DMRs to assist dischargers in reporting their
                  effluent data to the Region for input to PCS. PCS also includes
                  provisions for inputting data on compliance with reporting
                  requirements such as, due dates for plans, reports, inspections, and
                  construction milestones.

                                39               Report No. E1HWF7-10-0012-8100076
                         PCS generates the QNCR to assist the Region in monitoring
                         compliance with permit effluent limitations and reporting
                         requirements. EPA regulation 40 CFR 123.45 established QNCRs
                         as a tracking mechanism for dischargers that violate their permit
                         effluent limits and/or reporting requirements. The QNCR is only
                         useful as a tool to identify permit violations if the underlying PCS
                         information on the discharger is current and complete.


INFORMATION ON NEW       The information in PCS for dischargers in the States of Alaska and
PERMITS WAS NOT          Idaho was generally current and complete, except for new or
INPUT TIMELY OR          renewed permits. The Region did not input permit effluent limits
COMPLETELY               and reporting requirements into the PCS timely and completely for
                         dischargers receiving new or renewed permits. Effluent limits were
                         not input timely and reporting requirements were not always input
                         to PCS.

New Permit Effluent      The Region issued new permits to nine major dischargers during
Limits Were Not Input    our audit period. We compared the date of the permit for these
Timely                   major dischargers with the date the permit effluent limits were input
                         to PCS. For five of the permits, we could not determine the date of
                         input because the permit had not been annotated with the PCS entry
                         date. For the other four permits, the average time between permit
                         issuance and PCS input was almost 4 months as shown below:

                                             Date of        Date of        Delay in
                            Permit No.        Permit       PCS Input        Input
                            AK0022942        12-23-94      03-01-95          68 days
                            AK0028657        04-29-96      09-06-96         130
                            ID0027090        05-02-95      08-02-95          92
                            ID0000019        10-01-96      03-31-97         181

                              Average                                       118 days

Reporting Requirements   Reporting requirements for new and renewed permits were not
Were Not Always Input    always being input to PCS. We judgmentally selected eight new
to PCS                   permits with various plans and reports required to be submitted to
                         the Region. These eight permits had requirements for 35
                         plan/report due dates. We compared these permit reporting
                         requirements with information in PCS. The PCS had not been
                         updated for six of the permits, and due dates for 23 of the
                         plans/reports were not in PCS. Examples of this condition are
                         detailed below:


                                        40              Report No. E1HWF7-10-0012-8100076
                       C       Permit No. AK0022543 Anchorage-Eagle River. The
                               permit was issued on April 12, 1995 with due dates for
                               five plans/reports. As of May 16, 1997, due dates for
                               three of the plans/reports had not been input to PCS.

                       C       Permit No. AK0037303 Trident Seafoods-Akutan. The
                               permit was issued on April 29, 1996 with due dates for
                               six plans/reports. As of May 16, 1997, due dates for six
                               of the plans/reports had not been input to PCS.

                       C       Permit No. ID0000019 Potlatch Corp.-St. Maries. The
                               permit was issued on October 1, 1996 with due dates
                               for three plans/reports. As of May 16, 1996, due dates
                               for three of the plans/reports had not been input to PCS.


QNCRs ARE           For those dischargers whose new permit effluent limits and
INEFFECTIVE AS AN   reporting requirements were not input timely or not input at all, the
ENFORCEMENT TOOL    PCS was not an effective tool to detect noncompliance with the
                    permit conditions; and violations were not reflected in the
                    generated QNCRs. This QNCR weakness reduced the Region’s
                    ability to identify and take timely enforcement action against
                    violators.

                    We identified several instances where permit violations should have
                    been reflected in a QNCR, but were not. These violations involved
                    non-reporting of effluent data as well as non-submittal of
                    plans/reports as required. Examples of the violations that we noted
                    include:

                       Non-reporting of effluent data limits:

                       C       Permit No. AK0022543 Anchorage - Eagle River. This
                               discharger did not submit DMRs for new effluent limits
                               for 4 months after the effective date of its permit.

                       C       Permit No. ID0000019 Potlatch - St. Maries. This
                               discharger did not submit DMRs for new effluent limits
                               for 6 months after the effective date of its permit.

                       Non-submittal of plans/reports as required:

                       C       Permit No. AK0022543 Anchorage-Eagle River. This
                               permit required that a progress report on the preparation

                                  41               Report No. E1HWF7-10-0012-8100076
                               of a Sludge Disposal Contingency Plan and a Sludge
                               Sampling Report be submitted to the Region in May
                               1996. The Contingency Plan was not submitted until
                               November 1996 (6 months late) and the Sampling
                               Report was not submitted until August 1996 (3 months
                               late).

                       C       Permit No. AK0028657 Unisea-Dutch Harbor. This
                               permit required that a Seafloor Monitoring Plan be
                               submitted to the Region 60 days before the survey
                               occurred (December 2, 1996) and a Visual Monitoring
                               Plan be submitted by May 31, 1997. The Seafloor
                               Monitoring Plan was not provided to the Region until
                               August 12, 1997 (over 10 months late). The Visual
                               Monitoring Plan was not provided until August 12,
                               1997 (over 2 months late).

                    All of the above violations were subject to enforcement actions by
                    the Region. However, the Region advised that it would not
                    normally initiate enforcement action for such violations; particularly
                    for the failure to submit DMRs on new effluent limits. The Region
                    advised that it was partly at fault because it had not provided the
                    dischargers preprinted DMRs with the new effluent limits. We
                    believe that the Region’s perspective increases the importance of
                    assuring that new permit effluent limits and reporting requirements
                    are input timely to PCS.


REGIONAL GUIDANCE   The new or renewed permit effluent limits and reporting
NEEDS IMPROVEMENT   requirements had not been input timely to PCS because the Region
                    had not established priorities for PCS input. Input of new permit
                    effluent limits and reporting requirements receive low priority
                    compared to DMR data input. We believe that the Regional
                    management should set written priorities for the timely input of new
                    and renewed permit requirements into the PCS. Procedures should
                    also ensure that staff follow the Region’s practice of documenting
                    the input of new permit requirements into the PCS with initials and
                    dates of input written on the permits.




                                  42               Report No. E1HWF7-10-0012-8100076
RECOMMENDATIONS      We recommend that the Regional Administrator:

                        5-1.    Establish written priorities and procedures for PCS
                                input that ensure that new permit effluent limits and
                                reporting requirements are input into the PCS as soon as
                                the permit is effective.

                        5-2.    Improve procedures to ensure that the entry date of new
                                permit effluent limits and reporting requirements into the
                                PCS are documented on the permit with the date of
                                entry and initials of personnel making entries.


REGION COMMENTS      The Region concurred with the recommendations and stated that it
AND OIG EVALUATION   has either implemented or is in the process of implementing
                     corrective actions. We consider the corrective actions implemented
                     or proposed to be satisfactory.




                                  43               Report No. E1HWF7-10-0012-8100076
(This page intentionally left blank.)




                 44               Report No. E1HWF7-10-0012-8100076
                          APPENDIX A
                  AUDIT SCOPE AND METHODOLOGY



                   This section describes the audit scope and methodology, including
                   sample selection for our review of permits, applications, compliance
                   inspections, enforcement activities, and management reporting.

                   We performed our audit in accordance with the Government
                   Auditing Standards issued by the Comptroller General of the United
                   States. Audit fieldwork was performed between March 1997 and
                   September 1997. The audit covered management controls in effect
                   for the period October 1994 to March 1997. In addition, we
                   reviewed the Region’s progress on its Comprehensive Plan through
                   September 30, 1997. Our audit focused primarily on the
                   nondelegated States of Alaska and Idaho.

                   We interviewed officials in the Region's Office of Water and the
                   operation offices in Alaska and Idaho. We reviewed applicable
                   laws, regulations, and directives and examined records maintained
                   by the Region.

                   The scope included a review of management controls associated
                   with: (i) permit issuance and renewal; (ii) compliance monitoring;
                   (iii) enforcement; and (iv) management reporting system. We
                   obtained an understanding of management controls through
                   inquiries, observations, and inspections of documents and records.
                   We assessed the control environment, policies and procedures, and
                   risk for the four program areas listed above.

                   The management control deficiencies that were identified in the
                   audit are described in the report, along with recommendations for
                   corrective actions. We also reviewed the Region’s 1997 annual
                   FMFIA assurance letter to the Administrator.

Permit Sampling    Our review of permits included a judgmental sample of 18 out of 33
                   permits issued for the States of Alaska and Idaho. The sample
                   included a mix of: general, municipal, industry, and Federal
                   dischargers.


                                        45               Report No. E1HWF7-10-0012-8100076
Application Sampling   We judgmentally selected a sample of 52 out of 301 applications
                       from dischargers in the States of Alaska and Idaho that were
                       received between October 1992 and March 1997. The sample
                       included a mix of categories where the applicant never received a
                       permit, the permit expired and had not been administratively
                       extended, and the permit expired and it was administratively
                       extended. The sample also included a mix of municipals and
                       industries.

Compliance             We selected a judgment sample of 22 compliance inspections,
Inspection Sampling    including 13 major dischargers (municipal and industrial) for Alaska
                       and Idaho out of 291, and 9 miscellaneous dischargers such as
                       Federal, Tribal, and minor for the States of Alaska, Idaho, and
                       Washington. The sample also included a mix of the two inspection
                       types reported and included inspections during inspection years
                       1995, 1996, and through April 18, 1997.

Enforcement            We reviewed all 25 dischargers that were reported by PCS as being
Sampling               in SNC for a quarter or more. The 25 dischargers in SNC were a
                       mix of municipals and industries in the States of Alaska and Idaho,
                       and a Federal discharger in the State of Washington. The time
                       period included fiscal 1995 through the first quarter of fiscal 1997.

Management             Our review of management reporting included a judgment sample
Reporting Sampling     of 24 monitoring reports and 35 compliance plans and reports.
                       These samples were from the permit sample of 18 issued permits in
                       the States of Alaska and Idaho.




                                             46               Report No. E1HWF7-10-0012-8100076
           APPENDIX B
                 ACRONYMS




AK      Alaska
Cl      Chlorine
CFR     Code of Federal Regulation
CWA     Clean Water Act
DMR     Discharge Monitoring Report
DOT     Department of Transportation
EL      Exceptions List
EMS     Enforcement Management System
FMFIA   Federal Managers’ Financial Integrity Act of 1982
GP      General Permit
ID      Idaho
MOA     Memorandum of Agreement
NOI     Notice of Intent
NPDES   National Pollutant Discharge Elimination System
NPU     NPDES Permit Unit
OIG     Office of Inspector General
OR      Oregon
ORC     Office of Regional Counsel
PCS     Permit Compliance System
QNCR    Quarterly Noncompliance Report
RA      Regional Administrator
SNC     Significant Noncompliance
SWPPP   Storm Water Pollution Prevention Plan
TMDL    Total Maximum Daily Load
WA      Washington




                           47            Report No. E1HWF7-10-0012-8100076
(This page intentionally left blank.)




                 48             Report No. E1HWF7-10-0012-8100076
                                     APPENDIX C
                       REGION RESPONSE TO DRAFT REPORT



Attached is the Region’s comments to the draft report.




                                                   49    Report No. E1HWF7-10-0012-8100076
(This page intentionally left blank.)




                 50               Report No. E1HWF7-10-0012-8100076
              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  REGION 10
                              1200 Sixth Avenue
                         Seattle, Washington 98101

                              JAN 2 3 1998

Reply To

Attn Of:   OW-130

MEMORANDUM

SUBJECT:   Draft Report on Region 10's NPDES Permit Program, Draft
           Report No. ElHWF7-10-0012

FROM:      Chuck Clarke
           Regional Administrator
           EPA Region 10

TO:        Truman R. Beeler
           Divisional Inspector General for Audits
           Western Audit Division

     Thank you for providing us the opportunity to review the draft
report on the Region's NPDES Permit and Compliance Program. Our
responses are attached for your consideration in preparing the final
report. Since the draft position papers were prepared, we have
completed certain tasks and have outlined them in the attachment.
Where appropriate, we have provided target dates for addressing other
recommendations.

     We are committed to managing an effective NPDES program and
generally accept the recommendations in the report. Our attention
will continue to be focused towards priority watersheds that have been
significantly impacted by point sources and targeted significant
categories of dischargers.

     Please inform us if you wish to discuss our responses. I have
asked that Roger Mochnick, Assistant Director, Office of Water
(206)553-1216, be our contact person.

Attachments

cc:   Charles Reisig, OIG Team Leader
      Janet Tursich, OIG Auditor-in-Charge



                                    51        Report No. E1HWF7-10-0012-8100076
EPA Region 10 Response to the OIG's NPDES Draft Audit Report

A. NPDES Permit Program

Recommendation 2-1: Report the backlog of NPDES permit applications as
a material weakness in the next annual FMFIA assurance letter to the
EPA Administrator.

Non-concur. The Region acknowledges the backlog. As outlined in the
report, a strategic plan has been developed and is being implemented
to address the backlog. In addition, the Region hired a permit writer
in 1997 and expects to hire another one in FY 98. The Region's policy
is to continue to focus its limited permit resources, in the near
term, on point sources located in the highest priority watersheds,
selected major industrial categories and on New Source applicants.
Our eventual goal will be to address all applications. Finally, as
was stated in the report, the data base the Region used to estimate
its permit workload in its strategic plan is outdated and is being
updated. Initial estimates are that the backlog will decrease by at
least 33 percent. Given the above, the Region feels that reasonable
steps are being taken to address the backlog.

Recommendation 2-2: Aggressively monitor Objective 1, tasks 3, 4, and
5 in the Plan to help assure issuance of permits to strategically
targeted dischargers by September 30, 1999. Recommendation 2-3:
Monitor the accomplishment of all tasks identified in the Plan
relating to eliminating the permit backlog.

Concur with comment

!    Task 3, (permit writers develop individual permit workplans) is
     completed. The individual workplan is a tool that permit writers
     are employing to manage their individual projects. However, the
     most important task was assigning the permits to the individual
     permit writers for the next 3 years (Task
     3). This was completed during the first quarter of FY 97.

!    Task 5 (re-evaluating Tier 1 permits) was completed and will be re-
     evaluated each year.




                                   52         Report No. E1HWF7-10-0012-8100076
!    The watersheds identified in the report are high priority for the
     Region. The permits associated with these watersheds are
     contained in the unit plan as priority facilities for permitting.
     In addition, the mid-reach of the Middle Snake River in Idaho is
     a high priority watershed. EPA completed 3 TMDLs in Unalaska Bay
     and issued permits to the affected facilities. There is one
     remaining “Major" facility (Westward) which is scheduled for
     issuance in FY98.

!    It is hard to predict impediments to issuance of the permits. Of
     particular concern is Endangered Species Act Consultation. Many
     of the high priority facilities discharge to waterbodies with
     listed or threatened species. EPA cannot issue permits until the
     Region is in receipt of an approval letter from the affected
     Service(s).


    THIS PORTION OF THE RESPONSE DELETED BECAUSE OF CHANGES
                MADE IN THE FINAL AUDIT REPORT




!    Page 8, Table of applications: There are only a few
     “majors" without permits and/or whose permit could not be
administratively extended. They are listed as Tier 1
facilities in the Unit Plan.




                                  53         Report No. E1HWF7-10-0012-8100076
!      The current permit status for Tier 1 permits in the Unit Plan
       is: permits issued (14), public notice awaiting state
       certification (6), at public notice (14), permits being
       drafted (24), additional permits targeted in FY 98 for
       drafting (17). This represents approximately 75% of the
       facilities identified as Tier 1.

B. NPDES Compliance Program

Recommendation 3-1: Establish controls to assure that the Region
meets its compliance inspection commitments.

Concur with comment. Region 10 NPDES Compliance Unit (NCU) has
established a process to ensure that the targeted inspections reflect
the commitments. We have also initiated an inspection tracking
program that will monitor our progress and enable us to make any
necessary mid-course corrections. However, at times the NCU may not
inspect 100% of the major dischargers or facilities on the commitment
list if other dischargers are deemed to be of greater environmental
concern. EPA HQ concurs with this approach. For instance, some
minor dischargers pose larger environmental concerns than listed
majors. In such cases, environmental protection must take precedent.
The NCU will target 85-90% of all majors during the inspection
planning process at the beginning of each fiscal year. Those not
inspected will be a high priority the following year.

Corrective action process implemented 4th Q FY97.

Recommendation 3-2: Establish procedures for inspectors to issue
timely reports.

Concur with comment. Region 10 NPDES Compliance Unit (NCU) has
established inspection report submittal dates of 45 days for sampling
inspections and 30 days for evaluation inspections as stated in the
IG report. Due diligence will be utilized to adhere to the
stipulated time frames. Inspection dates and report submittals will
be more closely tracked by the NPDES data management support group
and the Unit Manager. We have also developed a guidance document for
writing inspection reports and have forwarded it to the inspectors.
In the transmittal memo for the guidance, we have stated that the
reports should in most cases be submitted within two weeks. This
time frame is an internal target and is intended to provide a buffer
to ensure that 30 and 45 day official targets are met. During the
FY97




                                 54         Report No. E1HWF7-10-0012-8100076
dairy initiative the average time for completed reports for the 64
inspections was two weeks.

Corrective Action established 4th Q FY97.

Recommendation 3-3: Assure that the new procedures requiring
Compliance Officers to notify dischargers of the results of
inspections continue to be consistently implemented.

Concur with comment. Compliance Officers have been notified that
inspection reports are to be forwarded to the facilities immediately
after completion. In addition, we have implemented an inspection
report routing form which provides detailed written instructions as
well as due dates for each activity for each person involved in the
forwarding of inspection reports.

Corrective action implemented 3rd Q FY97.

Recommendation 3-4: Establish a log or other procedures to ensure that
citizen complaints relating to potential permit and other NPDES
violations are documented, resolution of complaints are tracked, and
the complainant is notified of the resolution.

Concur with comment. The Seattle based NCU staff has initiated the
following compliance tracking system: complaint received, follow-up
action, and potential enforcement action. Complainant will be
notified of follow-up action, when requested.

Corrective action implemented 4th Q FY97.

Recommendation 3-5: Commit resources to compliance monitoring
activities for the general storm water permits. Specifically,
resources should be committed to perform the following activities: (i)
reconciliations between those dischargers required to submit an NOI
and those discharges who have submitted an NOI; (ii) send letters to
those dischargers violating the NOI requirements; (iii) initiate
appropriate enforcement actions; and (iv) track reporting.
Requirements stipulated by the general permits.

Concur with comment. No additional resources are being planned beyond
what is now allocated by Region 10 for storm water monitoring
activities. However, as discussed earlier, environmental concerns
including storm water activities warranting EPA actions will take
precedent over other concerns.




                                  55         Report No. E1HWF7-10-0012-8100076
Region 10 is also attempting to track those facilities required to
submit NOIs and those facilities that are currently doing so.
Additionally, notices of violation are being sent to noncompliant
facilities and appropriate enforcement actions are being taken. For
example, the NCU recently initiated and settled a storm water
violation case with the Alaska Department of Transportation. The NCU
is also currently investigating two other potential storm water
violation cases in Alaska and Washington.

Corrective action implemented lst Q FY97.

Recommendation 3-6: Establish and implement procedures to ensure
adequate and consistent compliance monitoring of dischargers under all
general permits (particularly general permits for storm water and
seafood) and minor dischargers. At a minimum, the procedures should
include adequate tracking of: (i) dischargers required to be covered
by permits; and (ii) discharger submittals of required reports.
Procedures should also include appropriate enforcement on instances of
identified noncompliance.

Concur with comment. The NCU has recently initiated a new compliance
monitoring system termed the NPDES Compliance Evaluation Program
(NCEP). This new system will enable the Unit to evaluate the
compliance status of any facility submitting DMRs including minors.
The NCEP is intended to supplement the existing compliance monitoring
systems, such as PCS. The focus for NCEP will be those facilities
that are priority sector facilities or those located in priority
watersheds. The NCU manager and the Data Tracking Coordinator will
meet on a monthly basis to evaluate the compliance information from
the monitoring system and, with input from the compliance officers,
will determine the appropriate enforcement actions. The NCU manager
has also recently initiated quarterly conference calls with
headquarters to discuss pending enforcement actions.

Corrective action implemented lst Q FY98.


Recommendation 4-1: Implement controls to ensure that: (i) appropriate
and timely enforcement actions are taken against discharges in SNC;
and (ii) the importance of Agency guidance requiring formal
enforcement actions against dischargers in SNC




                                  56         Report No. E1HWF7-10-0012-8100076
is emphasized to the Compliance Unit staff. As a first step, the
Region should update and implement its EMS Manual, ensuring its
consistency with Headquarters’s EMS and the Agency's enforcement
policy for SNC violators.

Concur with comment. The NPDES Unit Manager and the Data Management
Coordinator have recently initiated quarterly conference calls with
Headquarters Enforcement Coordinator to decide appropriate
enforcement actions for facilities on the SNC. The NCU is also
currently updating the EMS process to be consistent with Agency
guidelines. This should be completed by March 1, 1998. In addition,
NCEP will alert the compliance officers of the facilities that are
nearing SNC. This information will be used to proactively deal with
facilities nearing SNC.

Corrective action completed 2nd Q FY98.

Recommendation 4-2: Ensure that all decisions not to take formal
enforcement action against SNC violators are justified and adequately
documented in the compliance file. This could be accomplished
through a standard Record of Decision form completed by the
Compliance Officer and signed by the Compliance Unit Chief.

Concur with comment. The Compliance Officers and Unit Manager will
immediately begin to use standard Record of Decisions forms.
Additionally, "no enforcement actions" will be discussed with
Headquarters Regional Coordinator via monthly conference calls.

Corrective action implemented 2nd Q FY98.

Recommendation 4-3: Implement procedures that require the Compliance
Unit Chief to provide written concurrence in all decisions to take no
formal action against violators in SNC.

Concur comment.   See above response under 4-2.

Recommendation 5-1: Establish written priorities and procedures for
PCS input that ensure that new permit effluent limits and reporting
requirements are input into the PCS as soon as the permit is
effective.

Concur with comment. The written priorities and procedures for PCS
input are already documented in the PCS Quality Assurance


Guidance Manual, dated August 1992. The NPDES Compliance Unit's data
quality objectives for timeliness, accuracy, completeness and


                                  57         Report No. E1HWF7-10-0012-8100076
consistency will be at least as stringent as the national standards
summarized in Tables 2 and 3 of that document (tables available on
request). The NCU has also established a procedure whereby after a
permit is coded/updated in PCS, the data entry staff provides the
compliance officer with the permit, a Limitations Summary Report, and
Compliance Schedule Report to review for data completeness and
accuracy.

Corrective action implemented 2nd Q FY98, completed 4th Q FY98.

Recommendation 5-2: Improve procedures to ensure that the entry date
of new permit effluent limits and reporting requirements into the PCS
are documented on the permit with the date of entry and initials of
personnel making entries.

Concur with comment. The NCU's data entry staff will ensure that they
document the date of data entry and initial the permit. The NCU has
recently initiated a backup system to catch undocumented permits
before they are filed in the administrative records by instructing the
file clerk to flag and return any permits not documented to the data
entry staff.

Corrective action implemented 2nd Q FY98, completed 4th Q FY98.




                                  58         Report No. E1HWF7-10-0012-8100076
                                    APPENDIX D
                                 REPORT DISTRIBUTION




Office of Inspector General

 Acting Inspector General (2410)
 Deputy Assistant Inspector General for Internal Audits (2421)

EPA Headquarters Office

 Assistant Administrator for Office of Water (4101)
 Assistant Administrator of Office of Enforcement and Compliance Assurance (2201A)

 Agency Followup Official (2710)
 Agency Followup Coordinator (3304)
 Associate Administrator for Regional Operations and State/Local Relations (1501)
 Associate Administrator for Congressional and Legislative Affairs (1301)
 Associate Administrator for Communications, Education and Public Affairs (1701)

Region 10

 Regional Administrator
 Director, Office of Water
 Audit Followup Coordinator
 Regional Library




                                                  59             Report No. E1HWF7-10-0012-8100076
